<html>
<title> - NOMINATION OF DANIEL M. ASHE TO BE DIRECTOR OF THE U.S. FISH AND WILDLIFE SERVICE</title>
<body><pre>[Senate Hearing 112-820]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-820
 
                  NOMINATION OF DANIEL M. ASHE TO BE 
             DIRECTOR OF THE U.S. FISH AND WILDLIFE SERVICE 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-225 PDF                       WASHINGTON : 2014 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arizona
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 15, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........     7
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     8
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    10
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    11
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    12
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    13
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    15
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    15
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    16

                                WITNESS

Ashe, Daniel M., Nominated by President Obama to be Director, 
  U.S. Fish and Wildlife Service.................................    18
    Prepared statement...........................................    19
Responses to additional questions from:
    Senator Boxer................................................    39
    Senator Inhofe...............................................    41
    Senator Crapo................................................    54
    Senator Lautenberg...........................................    57
    Senator Barrasso.............................................    59
    Senator Merkley..............................................    67
    Senator Vitter...............................................    71
    Senator Udall................................................    88
    Senator Session..............................................    91

                          ADDITIONAL MATERIAL

U.S. Fish and Wildlife Service Interagency Consultation Involving 
  Longhead Sea Turtles, as of February 23, 2011..................93-131
List of Publications, Testimonies and Speeches..................132-137


   NOMINATION OF DANIEL M. ASHE TO BE DIRECTOR OF THE U.S. FISH AND 
                            WILDLIFE SERVICE

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10:10 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Barbara 
Boxer, (chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Baucus, Lautenberg, 
Cardin, Whitehouse, Udall, Merkley, Vitter, Barrasso, Crapo and 
Boozman.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Today, the Senate Committee on Environment 
and Public Works will consider the nomination of Dan Ashe to be 
Director of the U.S. Fish and Wildlife Service.
    During his more than 15-year career with the Fish and 
Wildlife Service, Mr. Ashe has held a wide variety of positions 
that have given him a deep understanding of the Agency he is 
being asked to lead. Dan Ashe currently serves as the Deputy 
Director.
    Since joining the Fish and Wildlife Service in 1995, he has 
also served as Science Advisor to the Director, where he 
advised the Service Director and provided leadership on use of 
science within the Agency. He has served as Chief of the 
National Wildlife Refuge System, where he was responsible for 
directing operations and management of the more than 150 
million acre refuge system. He served as Assistant Director for 
External Affairs.
    Dan Ashe's broad experience with the Fish and Wildlife 
Service makes him uniquely qualified to deal with the many 
challenges the Service faces today. Mr. Ashe's knowledge and 
appreciation of the Fish and Wildlife Service developed well 
before serving in leadership positions with the Agency. His dad 
was also a career Fish and Wildlife Service employee. Mr. Ashe 
spent his childhood visiting many of the national treasures 
that the Service is charged with protecting.
    I know family always plays an important role in our 
achievements. I would like to welcome members of Dan Ashe's 
family who have joined us here today. His wife, Barbara, raise 
your hand. His daughter, Mary. Welcome. Unfortunately, son 
Michael is busy preparing for his college mid-terms and 
couldn't join us.
    Mr. Ashe, as you know, the task you have been asked to 
undertake is very important. The Fish and Wildlife Service is 
the guardian of natural treasures and species in every single 
State of the Union. In my own State of California, the Service 
has responsibility for iconic species, like the bald eagle, and 
the California condor, and irreplaceable wildlife refuges like 
the ones in San Francisco Bay and San Diego. I have to say that 
these irreplaceable environmental gems are the keystone to our 
tourist industry, and the many, many millions of jobs that rely 
on a pristine environment in our State.
    So you support, the Service supports tourism and recreation 
that boosts local economies in California and across this 
Country.
    In 2006, according to a national survey of fishing, hunting 
and wildlife associated recreation, hunting, fishing and 
wildlife related activities provided $8 billion to the 
California economy, and more than $122 billion to the national 
economy, equaling roughly 1 percent of our Nation's GDP. The 
Outdoor Industry Association estimates that outdoor recreation 
contributes $730 billion to the U.S. economy. It is responsible 
for 1 out of every 20 jobs.
    Mr. Ashe, you have been nominated to lead an agency that 
not only maintains safeguards for our Nation's iconic species, 
but it also plays this key role in supporting a multi-billion 
dollar wildlife related economy. When I said at the beginning 
that our Committee is really focused a great deal on economy 
and jobs, your position really is an example of good 
stewardship relating directly to these jobs.
    The health of our environment and the success of our 
economy go hand in hand. The job isn't easy. There will be 
controversy and difficult decisions. But I expect that you will 
follow the law and the best science in your decisionmaking.
    At the beginning of this Administration, President Obama 
took important steps to restore scientific integrity and 
committed to uphold the Endangered Species Act. The President's 
priorities have been echoed by Secretary Salazar. Today, I look 
forward to hearing how, if confirmed, you will fulfill these 
commitments at the Fish and Wildlife Service. Strong leadership 
is needed to protect and preserve our Nation's treasures and to 
confront the pressing problems facing our Nation's fish and 
wildlife.
    Your record as a committed conservationist and your many 
years of experience with the Fish and Wildlife Service in my 
opinion are strong qualifications for this important position. 
I look forward to hearing from you today and your swift 
confirmation.
    I will call on the Ranking Member.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    Welcome to our witness here. I had a chance to visit with 
Mr. Ashe. This Committee is a huge jurisdiction. One of the 
things that I believe we are concerned with as much as any 
other jurisdiction is the Fish and Wildlife. There is not a 
person up here, Democrat or Republican, that doesn't have 
people coming with ideas and with complaints. A lot of the 
programs that we have done were the right programs.
    As I told you in my office several weeks ago, I think that 
it is important that a director have a background as you have. 
You have been the Assistant Director, and the other positions 
that the Chairman mentioned. I think that is important. I think 
you understand the role.
    But there are some recent things that I am very concerned 
about. I shared my concerns before about the recent decisions 
made by the Service that in my view put politics before sound 
science and the welfare of species. Unfortunately, I think you 
may have inherited a problem here that you are going to have to 
address, because you are the boss. You are going to be the 
Director if you are confirmed.
    On the point of the Endangered Species Act, as a tool to 
regulate global warming, I am going to ask Mr. Ashe about the 
Service's recently issued climate change strategic plan which 
States, among other things, ``The future of fish and wildlife 
and people hangs in the balance.'' That is kind of scary, which 
is consistent with everything else that they are doing, with 
the scary talk. It also calls on the Service to transform its 
basic mission, stating that it should ``examine everything we 
do, every decision we make, every dollar we spend though the 
lens of climate change.
    Where did that come from? We will give you a chance to 
answer that, and your participation in that, Mr. Ashe. Because 
you and I really didn't talk about that before.
    But I look at the ones that preceded you, they were 
concerned about sound science, about the wildlife services. I 
am talking about Dale Hall, the deceased Sam Hamilton, these 
people have done really a great job. There is no reason that 
you can't follow in their footsteps and do the same thing, 
absent these outside influences that are going to try to change 
the whole function of what Fish and Wildlife is supposed to be 
doing.
    Now, some of my colleagues have concerns about your 
nominations based primarily on your level of involvement in 
recent controversial listing decisions made by Fish and 
Wildlife. I know that Senator Barrasso is concerned about that. 
I am, too.
    I am also concerned about a process, two things that I 
really like about the system. One is the Partnership Program. I 
think, you have to refresh my memory, I know that Dale Hall was 
out in Oklahoma when we had that. You may have been there in a 
different capacity, when we actually held a hearing in my State 
of Oklahoma on the successes of the Partnership Program. That 
is getting with the land owners, the stakeholders, oil and gas, 
and these people, and talking about how they can do things to 
improve the environment, conservation. It is a recognition 
that, I know out in Western Oklahoma, we have many of our 
farmers and ranchers out there, they want a clean environment. 
They have ideas, and we should be listening to them. That is 
what the Partnership program is all about.
    Now, you and I have talked about that. This Candidate 
Conservation Agreement, I believe this is going to be 
circumvented. It is going to be up to you to make sure you 
don't allow those forces to force you into something you don't 
really believe in.
    So I am concerned about that and we will take this very 
seriously. I am concerned that you are being put in a very 
awkward situation right now. We will try to make the best of 
it, and hopefully we will be successful.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    We are here today to consider the nomination of Dan Ashe for 
Director of the U.S. Fish and Wildlife Service. In this capacity, he 
would be responsible for overseeing many programs of great importance 
within this Committee's jurisdiction, such as the Endangered Species 
Act and the Partners for Fish and Wildlife Program.
    Mr. Ashe has spent the majority of his career with the Service; 
and, I would note, he also spent much of his childhood on wildlife 
refuges, helping his father who also worked with the Service.
    I met with Mr. Ashe in my office last month, and we had a very 
honest discussion about the direction of the Fish and Wildlife Service. 
I shared my concerns about recent decisions made by the Service that in 
my view put politics before sound science and the welfare of species. I 
asked him to commit to me that he would make decisions based on the 
best available science, and avoid using the Endangered Species Act as a 
tool to regulate global warming.
    On that point, I will ask Mr. Ashe about the Service's recently 
issued climate change strategic plan, which states, among other things, 
that the ``future of fish and wildlife and people hangs in the 
balance.'' It also calls on the Service to transform its basic mission, 
stating that it should ``examine everything we do, every decision we 
make, and every dollar we spend through the lens of climate change.'' 
This is troubling to say the least, and I hope, Mr. Ashe, you can 
explain what it means.
    Your interpretation of that document is important. It leads to my 
next point. I would like your assurance today that, as Director of the 
Fish and Wildlife Service, you will continue in the tradition of former 
directors, Dale Hall and the recently deceased Sam Hamilton. They were 
admirable in that they reasonably and objectively considered the best 
science available. They were able to put politics aside and bring a 
good measure of balance to their decisionmaking.
    Now some of my colleagues have concerns about your nomination based 
primarily on your level of involvement in recent controversial listing 
decisions made by the Fish and Wildlife Service. I will certainly 
listen to those concerns, and I will also give you the opportunity to 
address them. As with any nomination, there is a process, a back-and-
forth between the nominee and senators. I will do what I can to 
facilitate that process.
    As I'm sure you know, Mr. Ashe, the decision to designate a species 
and its habitat as threatened or endangered should not be taking 
lightly. As head of the Service, you would be under constant legal 
pressure from environmental groups to list as many species as possible, 
but I ask for your assurance that, if you are confirmed, you will 
always keep in mind the impacts on local communities, land use, jobs, 
and our economy that result from these decisions.
    Despite controversies over listing decisions, I believe the Fish 
and Wildlife Service does a great deal of good--especially when it uses 
collaborative approaches between the Federal Government and private 
land owners, instead of punitive mandates. The Partners for Fish and 
Wildlife Program is a great example of what collaboration can achieve. 
This program conserves habitats by leveraging Federal funds through 
voluntary private landowner participation. As you know, I do have some 
concerns about how these designated funds have been used.
    This is a very important position, one that requires decisionmaking 
on issues that have profound impacts on the wildlife that we all 
treasure, but also on our local communities and the jobs that support 
them. I look forward to your testimony, and hope that we can address 
Senators' concerns about the ESA and some of the decisions you made 
during your tenure at the Service.

    Senator Boxer. Thank you.
    I just want to go over, in order of arrival on our side, 
Senators Sanders and Gillibrand have left. So this is the 
order. Cardin, Lautenberg, Merkley, Baucus, Whitehouse, Udall. 
On the Republican side, Crapo, Barrasso and Vitter.
    So we will go to Senator Cardin.

STATEMENT OF HON. BENJAMIN CARDIN, U.S. SENATOR FROM THE STATE 
                          OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much.
    Let me thank you also on the organization. I look forward 
to chairing the subcommittee in this Congress for the Water and 
Wildlife, as I did in the last Congress. I personally want to 
thank Senator Crapo for all his help. It looks like Senator 
Crapo is moving on to the Superfund, Toxics and Environmental 
Health as Ranking. I am sorry we will not have a chance to work 
directly together, but I look forward to continuing our 
commitment on water and wildlife. You were a great partner.
    I also want to acknowledge Tom Strickland, who is in the 
room, the Assistant Secretary, who will be leaving very, very 
shortly, as I understand. I just want to thank you for your 
public service and your help on our agenda in this Committee, 
and the Subcommittee. You are going to be missed, and the 
incredible public service that you have provided this Nation. 
We wish you only the best.
    Madam Chair, I also would like to point out, there will be 
another change on the Subcommittee, and that is the Chief Staff 
for the Water and Wildlife Committee, Sarah Greenberger will 
also be leaving and moving on to the executive branch. I want 
to thank her publicly for her incredible work in our 
Subcommittee. She carried the load, and I think we had a very 
productive 2 years in large measure due to Sarah Greenberger's 
work. I wish her only the best.
    I want to welcome Dan Ashe and his family to our Committee 
and thank him for his public service and his willingness to 
continue to serve the public. I want to welcome Barbara. I also 
want to welcome Mary, his daughter. Sorry Michael could not be 
here. We know he is studying for mid-terms.
    I also want to acknowledge Barbara's work as the vice 
president of the Montgomery County Chamber of Commerce. She is 
here also with G.G. Goodwin, who is a good friend. We welcome 
both to our Committee. As you can tell, Madam Chairman, Dan 
Ashe is a Marylander, and we are very proud of his residence in 
our State and very proud of his service to our community, his 
family's service to our community and his service to our 
Nation.
    This is a very important position, the position of Director 
of the U.S. Fish and Wildlife. It is important for our economy, 
it is important for our natural heritage. Just to mention one 
of the major areas, national wildlife refuge, it is responsible 
for $1.7 billion to our local economy, and 27,000 private 
sector jobs, just that one area that falls under your 
jurisdiction.
    I am particularly proud of the work that we have done 
together in the Blackwater National Wildlife Refuge, which is 
so important to the Chesapeake Bay, the wetlands that are 
contained there, to the American Bald Eagle, is a tourist 
destination, along with the Harriet Tubman Historical 
Landscape, which brings in around $28 million to the Dorchester 
County economy alone. That is a relatively small economy. And 
$28 million is a huge part of the economic impact.
    So your portfolio is very important to the people of 
Dorchester County, MD, and our Nation. We need a strategic 
leader, a person who will look to science to base policy, an 
effective manager of scarce resources. That person, Madam 
Chairman, is Dan Ashe, and I am proud that he is willing to put 
himself forward.
    He has an undergraduate degree in biology, a graduate 
degree in marine affairs, 13 years as a committee staffer in 
the House of Representatives, 15 years in the U.S. Fish and 
Wildlife, including Chief of the National Wildlife Refuge 
System. He currently holds the Deputy Director position.
    When he was Chief of the National Wildlife Refuge System, 
he helped us in regard to the Patuxent National Wildlife Refuge 
and the expansion of that area substantially. As science 
advisor, he helped us in restoring the Patuxent Wildlife 
Science Center, which has helped our Maryland economy.
    Dan has an incredible track record of successful work to 
help in Maryland and around the Nation. As science advisor, he 
developed strategic efforts to confront the impact of climate 
change. I think that is what we want to see. We want to see 
policy that is based upon good science. I believe that Dan 
follows, I know he follows in his family tradition, as you 
pointed out, as his father is a career employee and helped 
establish the Chesapeake Bay program.
    So we are very proud of the Ashe family and very proud that 
Dan is willing to follow. We think he si the right person, a 
true professional, and will put the public interest first. I am 
pleased to welcome him to the committee and urge that we 
swiftly consider and approve his confirmation.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Madame Chairman, I want to use my time this morning to introduce 
President Obama's nominee to be the next Director of the U.S. Fish and 
Wildlife Service, this Nation's leading wildlife conservation 
organization.
    Dan Ashe and his lovely wife, Barbara, who is also with us today, 
have been Maryland residents and local leaders in Montgomery County 
since 1983. I know Barbara's tremendous work and leadership in the 
county as Executive Vice President of the Montgomery County Chamber of 
Commerce. Her colleague, the Chamber's President, Gigi Godwin, is also 
in attendance today.
    Dan and Barbara's two children, Mary and Michael, are graduates of 
Montgomery County Public Schools. Mary is here today. A graduate of 
Carnegie Mellon University, we're proud she has brought her Master's 
Degree in engineering back to Maryland, and is volunteering in our 
schools to encourage our younger students to study math, science and 
technology.
    Michael is busy preparing for his mid-terms, so he couldn't be here 
today, but we wish him luck!
    While we are extremely proud of Dan and his family's contributions 
to Maryland, it is his professional background and proven capacity to 
lead that make him so qualified for the position to which he is 
nominated.
    The Fish and Wildlife Service is charged with conserving, 
developing, and managing the Nation's fish and wildlife resources. That 
mission is critically important to this country's natural heritage but 
also to our economy and way of life. National Wildlife Refuges, for 
example, provide critical habitat for cherished species and a place to 
hunt, fish and bird watch; a place to take our children and 
grandchildren to pass on skills and an appreciation for this country's 
wild places and wildlife. They also generate nearly $1.7 billion 
annually for local economies and support 27,000 private sector jobs.
    The Blackwater National Wildlife Refuge, established in 1933 as a 
sanctuary for migrating waterfowl, plays that kind of role in Maryland. 
Blackwater has been recognized internationally as a ``Wetlands of 
International Importance'' by the Ramsar Convention and an 
Internationally Important Bird Area. Blackwater also has the largest 
breeding population of American bald eagles on the East Coast, north of 
Florida.
    The Refuge has become a tourist destination and--along with the 
Harriet Tubman Historic Landscape--is providing a positive economic 
impact of approximately $28 million to the economy of Dorchester 
County. The tourists the refuge attracts to the heart of Chesapeake 
country create jobs for the county's residents.
    But our refuges, like Blackwater, are under growing pressure both 
from lack of resources and from a changing environment. Over time, 
Blackwater's wetlands have been greatly affected by several factors 
including climate change. According to a 2008 Society for Wetland 
Scientists report, Blackwater is losing on average 300 acres per year 
due to rising water levels, with 5,000 acres of marshland lost since 
the 1930's (see chart). This is a story that is playing out across the 
country as the habitat within refuges changes or is lost and species' 
migratory patterns change.
    Given these challenges, the Service needs a strategic leader. One 
that looks to the best science to direct the Services' too limited 
resources in conserving, protecting and managing our Nation's most 
cherished resources like those at Blackwater. Dan has proven that he is 
that kind of leader and has the right kind of experience to get the job 
done.
    He has an undergraduate degree in Biology; a graduate degree in 
marine affairs; 13 years experience as a Committee staffer in the U.S. 
House of Representatives; 15 years in the U.S. Fish and Wildlife 
Service, including serving as Chief of the National Wildlife Refuge 
System, Science Advisor to the Director, and currently, Deputy 
Director.
    When Dan was Refuge System Chief, I worked with him on several 
acquisitions for the Patuxent National Wildlife Refuge and witnessed 
his tireless approach to conservation of America's public lands.
    As Science Advisor, I personally saw his vision as he helped shape 
a critical restoration and revitalization for the Patuxent Wildlife 
Science Center, an effort that has been crucially important to the 
advancement of conservation science and to the economy of Maryland.
    In that position, Dan also lead the Service's effort to develop a 
strategic plan for confronting the impacts a changing climate is having 
and will have on our refuge system and trust species.
    As is clear from Blackwater, the Service cannot fulfill its mandate 
to conserve, protect and manage refuges and the wildlife that live in 
and migrate through them, without taking into account the impacts 
climate change will have on those resources. To turn a blind eye to 
these dramatic impacts (see chart) would be ineffective and 
irresponsible.
    Through his work on that policy and other efforts in his career, 
Dan Ashe has proven that he has the experience and capability to deal 
with difficult issues, but to do so while also developing lasting 
relationships.
    Dan has the support of a great breadth of environmental, 
conservation, hunting, and fishing organizations such as the Boone and 
Crockett Club, Ducks Unlimited, American Sportfishing Association, and 
Defenders of Wildlife. He has the support of the Association of Fish 
and Wildlife Agencies, illustrating his capacity to build critically 
important relationships with the States.
    Dan has a lifetime relationship with the Service. His father, Bill 
Ashe, was a 37-year career employee who reached the rank of northeast 
deputy regional director, and led the effort to establish the Service's 
Chesapeake Bay program.
    Dan Ashe's demonstrated leadership at the Fish and Wildlife Service 
and his commitment to science-driven decisions make him the ideal 
person to serve as Director. It's my pleasure to introduce this citizen 
of the great State of Maryland and to support Dan's nomination as 
Director of the U.S. Fish and Wildlife Service.
    I look forward to working with my colleagues on the Committee and 
in the Senate to swiftly move his nomination forward.

    Senator Boxer. Thank you, Senator.
    Senator Crapo.

 STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR FROM THE STATE OF 
                             IDAHO

    Senator Crapo. Thank you very much, Senator Boxer and Mr. 
Ashe, welcome.
    I appreciated the opportunity you and I had to visit in my 
office a couple of weeks ago. As you know from that visit, my 
highest priority with regard to Fish and Wildlife is resolving 
the wolf issue in Idaho, as well as in the rest of the Country. 
Not that there aren't a lot of other issues, but that one is 
paramount at this point.
    As you well know, the wolf was introduced to the Northern 
Rockies in the 1990s. Since that time, it has flourished, to 
the point where not only has it recovered, but it is 
continuing, the wolf populations are continuing to grow 
literally unrestrained. The damage they are doing to our elk 
herds, our big game herds, as well as our domestic wildlife, 
our livestock, is increasing. I know that you very well know 
that this is becoming a huge issue, not just in Idaho, but in a 
number of other States.
    Despite the fact that Idaho has done everything it has been 
asked to do under the law, and is in a position right now to 
manage the wolf, it has been denied that opportunity, primarily 
because of the inflexibility of the Endangered Species Act, in 
my opinion. I probably am going to be called away from this 
hearing to another hearing before I am going to get a chance to 
ask you some specific questions about that, so I will ask my 
questions, I will submit my questions to you if I am not here.
    But primarily, I want to, as a matter of record, just get 
your answers to some of the questions we discussed in my 
office, and to again, use this opportunity to encourage you to 
make it a priority for you, in your operations, to resolve this 
issue. We have too many States and too many people who are 
really hurting right now because of this issue. I am hopeful 
that we can develop a multi-faceted and effective and prompt 
solution to the issue.
    So again, if I don't get a chance to ask you the specific 
questions, they are not going to be a surprise because we have 
already talked about them. I am just going to ask to try to get 
some of your answers on the record and then work with you as we 
move forward to resolve the issue.
    Thank you.
    Senator Boxer. Senator Crapo, we will do everything to 
expedite the answers, so that we can move along.
    Senator Crapo. Thank you, and Madam Chairman, I am also 
aware that you are involved in working with some of us on this 
issue. We really appreciate your willingness to work with us to 
help find a solution.
    Senator Boxer. Thank you. Since you have thanked me, I want 
to thank Senator Baucus, Senator Cardin and others who also are 
trying very hard, and Senator Tester, to work this out. On your 
side, Senator Risch and others.
    Senator Crapo. Thank you very much.
    Senator Boxer. OK. We will turn to Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, and 
congratulations for getting us organized so quickly. That is 
rare around here. We are happy that it was done.
    I begin by congratulating our witness on his nomination to 
serve as the next Director of the National Fish and Wildlife 
Service. Dan Ashe is a strong candidate to lead this critical 
Agency, having inherited the zest and the zeal that he has from 
his father and his good work. He has held multiple positions 
with Fish and Wildlife during the past 15 years. Mr. Ashe is 
going to need to call upon this experience to confront major 
challenges, like the white nose syndrome that affects the bats. 
It is a fungus, and could wipe out much of our country's bat 
population.
    During the past two winters, more than 1 million 
hibernating bats have died, including hundreds at New Jersey's 
Hibernia Mine. I visited that mine shaft a long time ago, and 
there was a robust population of bats there. I was very 
comfortable with them. A recent visitor told us that the floor 
of the mine was covered with dead bats, thousands of them.
    It is a serious problem, it is a major threat to an entire 
ecosystem, with the potential to cause serious environmental 
and economic problems. Bats are one of nature's exterminators, 
and help to protect the public health and our crops. They prey 
mostly, almost exclusively on insects such as mosquitos, which 
spread disease, and moths and beetles which damage crops. A 
single bat can eat half its body weight in insects in a single 
night, and an entire colony will consume hundreds of millions 
of these insects.
    In the previous Congress, I hosted several briefings on 
this issue, requested and received a hearing in Senator 
Cardin's subcommittee, and secured more than a million dollars 
to research the white nose syndrome. But we have to do more, 
which is why today I am introducing the Wildlife Diseases 
Emergency Act. This bill will help Fish and Wildlife Service 
strengthen its response to outbreaks like the white nose 
syndrome, by improving its coordination with our Agencies and 
State governments.
    My legislation would also help provide more resources to 
address wildlife disease emergencies. I thank Senators Sanders 
and Leahy from Vermont for joining me in introducing this 
legislation.
    Disease is just one of the threats putting pressure on our 
wildlife. We recently learned that 2010 tied 2005 for the 
hottest year in recorded history. The record heat, along with 
droughts and floods, are wreaking havoc around the world. 
Global warming is a plague that is driving hundreds of 
thousands of species from their homes and to the brink of 
extinction. The fact is unarguable, the planet is changing. We 
can argue about it from our climate-controlled offices.
    But scientists know the truth, and they are trying to tell 
us. NASA scientists tell us, to survive, both marine and land-
based plants and animals have started to migrate toward the 
poles. These species, and in some cases entire ecosystems that 
cannot quickly migrate or adapt face extinction. With fewer 
healthy ecosystems for species to call home, it has never been 
more important for us to preserve and maintain areas like our 
national wild refuges.
    But more often than not, these refuges are overburdened and 
understaffed. Millions of refuge acres are overrun with 
invasive species like pythons, non-native rats and Asian carp. 
To make matters worse, more than 10,000 facilities are in 
disrepair, and shortages of law enforcement officers has led to 
problems with poaching, illegal border activity and drug 
trafficking.
    In New Jersey, Great Swamp National Wildlife Refuge 
provides a shelter for wildlife and respite for our city 
dwellers, just 26 miles west of Times Square in New York. But 
that refuge is being squeezed by growing development, 
fragmentation. We are destroying the habitats of several 
threatened and endangered species. Across the Country, one-
third of the refuges have no full-time staff.
    The men and women of the Fish and Wildlife Service are 
devoted to their work. Too often, they are called on at work to 
do more with less. If some of our colleagues have their way, it 
will soon get worse.
    House Republicans want to slash hundreds of millions of 
dollars from the Fish and Wildlife budget. We shouldn't be 
weakening our country's environmental defenses. I look forward 
to hearing Mr. Ashe's ideas on how we can address these issues 
and protect the habitats and wildlife that cannot protect 
themselves.
    May I take a moment more, Madam Chairman, to say thanks to 
Tom Strickland, whom I have known for a long time. He has been 
the Assistant Secretary for Fish and Wildlife and Refuges, and 
we are sorry to see him go. He got the first conviction under 
the Lautenberg law under the spousal abusers prohibition for 
guns. I thank you very much.
    Senator Boxer. Thank you, Senator.
    Now, Senator Barrasso.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    Welcome, Mr. Ashe. Congratulations. It was good to visit 
with you last week. Welcome to your family, thanks so much for 
being here, congratulations.
    I appreciate your taking the time to visit last week. We 
discussed a number of issues at the time. Obviously, U.S. Fish 
and Wildlife Service has a huge impact in my home State of 
Wyoming and the rest of the Rocky Mountain west. One issue that 
is of great concern to me is the use that you have heard in 
previous statements from my side of the aisle with use of the 
Fish and Wildlife Service as a climate change agency. We talked 
about that.
    The U.S. Fish and Wildlife Service's strategic plan for 
responding to accelerating climate change lays out a new 
mission for the Agency and the authority to carry out that 
mission. The plan states, ``As a service, we are committed to 
examining everything we do, ever decision we make, every dollar 
we spend, through the lens of climate change.'' The plan 
further states, ``Given the magnitude of the threat posed by 
climate change to life as we know it, we cannot afford to think 
small or be held back by our fears or concerns.'' The plan also 
goes on to say, ``We must act now, as if the future of fish and 
wildlife and people hangs in the balance, for indeed, all 
indications are that it does.''
    If the American people back home are confused by how this 
is possible, that the Fish and Wildlife Service is suddenly 
declaring itself a climate change agency, all they need to do 
is go to one of the passages buried in the 32 pages that says 
``Climate change is not a new mission. It is the lens through 
which we must accomplish the mission we already have.''
    To me, this type of reinterpretation of the law isn't music 
to the taxpayers' ears. It is an example of the type of 
unconstitutional policymaking at the agencies that has everyone 
on both sides of the Hill clamoring for regulatory reform. That 
is why I have introduced legislation, S. 228, the Defending 
America's Affordable Energy and Jobs Act, which restores 
Congress' role in determining America's energy and 
environmental future. It does this by putting a halt to these 
back door cap-and-trade regulations and policies.
    It is important to me that any nominee to be Director of 
Fish and Wildlife Service be cognizant of the threats facing 
species and address them with a balanced approach. Taxpayer 
money must be focused where it can do the most good. The iconic 
species in the west that are truly in danger must be managed 
responsibly in partnership with the States. When recovery goals 
are met, the Service should honor its obligation and not move 
the goal posts.
    There is a lot of criticism in the west toward the Fish and 
Wildlife Service. In the 1990s, under President Clinton, that 
relationship began to sour. The mistrust of the Agency by the 
people in my State has continued ever since. Under President 
Clinton, then-Interior Secretary Bruce Babbitt re-introduced 
gray wolves into the western Wyoming landscape, in Idaho and 
Montana. This decision was made without regard to many of the 
people who live there. We raise our families there, build our 
businesses there, and the Federal Government has treated us 
like some kind of a petri dish for an environmental experiment.
    Despite this, Wyoming has met its recovery goals for the 
wolf. On August 16th of last year, Assistant Secretary for 
Fish, Wildlife and Parks, Tom Strickland, who is with us today, 
said ``The recovery of the wolf has been a stunning 
conservation success.'' Yet, the Fish and Wildlife Services 
refuses to de-list the wolf in Wyoming. If we maintain the 
wolves, we should be allowed to manage them how we see fit.
    As I have stated in the past, the Clinton administration 
created this problem. The Bush administration failed to solve 
it. Now the Obama administration needs to deal with it. It is 
time for a change of course; it is time to restore the trust 
between the people of my State and the U.S. Fish and Wildlife 
Service.
    So I hope we can count on you and this Administration to 
work with Wyoming to see the wolves de-listed.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Merkley.

STATEMENT OF HON. JEFF MERKLEY, U.S. SENATOR FROM THE STATE OF 
                             OREGON

    Senator Merkley. Thank you, Madam Chair.
    Mr. Ashe, thank you for coming before the Committee. The 
Fish and Wildlife Service is an agency that has a major role in 
Oregon. We have 17 national wildlife refuges covering more than 
half a million acres. The Klamath Basin and its wildlife refuge 
is home to one of the most important bird habitats in North 
America.
    There are a couple of issues that I do have concerns about. 
One is the spotted owl recovery plan, which is being described 
very differently by the Fish and Wildlife Service and by the 
BLM in terms of its impact on forest management. Second of all, 
a series of proposals related to wind energy that seem at odds 
with the consultative process that went on for over 2 years. I 
will ask you about those when the question period comes, if I 
am still here. If not, I will followup in the record and 
followup with you.
    Thank you very much for coming today.
    Senator Boxer. Thank you, Senator.
    Senator Vitter.

STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Vitter. Thank you, Madam Chair, and thank you, Mr. 
Ashe, very much, for your service and for being here. Madam 
Chair, again, thanks for this very important hearing. It is 
important that Federal agencies be headed by competent and 
capable people. It is equally important that these folks 
understand that the decisions they make can have dramatic 
impacts, including dramatic economic impacts on the livelihoods 
of our fellow citizens.
    With that in mind, I want to highlight in my opening 
statement the ongoing deep frustration Louisianans are having 
with the Department of Interior over the ongoing de facto 
drilling moratorium in the Gulf. That is directly relevant, 
because it is Interior, and because all signs point to Fish and 
Wildlife and other environmental related agencies becoming much 
more involved in that permitting process.
    This de facto moratorium is devastating lives, costing 
jobs, devastating companies. Since the Deepwater Horizon 
explosion, and that is 8 months ago now, there have been zero 
new deepwater exploration permits issued. Zero. Since that 
incident, horrific incident, again, 8 months ago, the 32 
deepwater operations that were operating are still either 
completely shut down or there has been a marginal improvement, 
at best. That translates into jobs and people's lives being 
directly hurt.
    For 8 months straight before this month, Louisiana 
unemployment went up. As national unemployment was, thank 
goodness, stabilizing, Louisiana unemployment went up month 
after month for 8 months straight. That is directly related to 
this.
    Just last week, the second-largest shallow water driller in 
the Gulf, Seahawk Drilling, filed bankruptcy, because shallow 
water is still also impacted. Those permits have slowed, 
although it is not as bad as deepwater.
    Bottom line here, Louisianans want to get back to work. 
Filling those jobs is my absolute top priority. That has to 
come first.
    Second, there is even an impact on things we are debating 
right now in terms of debt and deficit and the budget. After 
the U.S. income tax, the second largest source of Federal 
revenue is royalty and other revenue related to that domestic 
energy production. So we are shutting that down and 
dramatically reducing that as well, even in a time when we are 
all rightly concerned about deficit and debt.
    One thing related to this, Century Exploration recently 
filed a lawsuit against the Federal Government, against the 
Interior Department, I think this is just the beginning, for 
breach of contract, asking for their money back, asking for 
lost profits, because they bought leases which are now pretty 
much good for nothing.
    My frustration is only increased by non-responses from the 
Interior Department. That includes, for instance, a November 
21st letter from last year, which still has not been responded 
to. A February 3d letter from this year which still has not 
been responded to in terms of this issue. Those were not 
addressed to you, of course, Mr. Ashe. They were addressed to 
some of your significant colleagues in Interior.
    This is consistent, unfortunately, with the fact that the 
Department was handed a civil contempt order recently by the 
Federal judge handling these matters in terms of how the 
Department has handled the whole de facto moratorium and 
moratorium issue.
    I can't overstate how devastating this has been to so many 
Louisianans and how frustrated Louisianans are with this 
pattern of actions by the Interior Department. That is my top 
concern, filling those Louisianans' jobs is my top priority. 
That has to come first. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Baucus.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. Thank you, Madam Chairman, and thank you, 
Mr. Ashe. Also Mr. Strickland, thank you for your service to 
our country. Welcome, Mr. Ashe, to the Committee.
    The Fish and Wildlife Service has a unique responsibility 
to watch over our Nation's wildlife. Your decisions about their 
likely future and whether intervention is needed impacts 
millions of people around the country. This is a significant 
charge, and it is imperative that your decisions reflect both 
the current and best science, as well as the reality of 
conditions on the ground.
    As you know, we have a problem in our State, and that is 
wolves. The recent court decision which overturned the Fish and 
Wildlife Service's 2009 rule has created an untenable situation 
on the ground. Montana's consensus-based approach to wolf 
management, as is the case in other wildlife management, has 
demonstrated proven results, with a successful wolf hunt that 
works for hunters, ranchers and for wolves.
    But instead of being rewarded, Montana's success has been 
halted by the return of the wolf to the Endangered Species 
List. Management has shifted from Montana back to Washington. 
Senator Barrasso is correct; there is a deep feeling in the 
west that Washington just doesn't get it. It is removed, a 
little paternalistic, as the Senator mentioned, a petri dish, 
some of those words all come to mind.
    Ranchers aren't clear on what the rules are. Hunters are 
worried that elk populations may dwindle if wolf populations 
are left unchecked, as is currently the case. Just last week, 
the Fish and Wildlife Service said it would be six more weeks 
before it could act on a Montana proposal to conduct a wolf 
hunt this year to control populations.
    We have been talking about this for a long time, since 
August. We are well past the time when it should be fixed. I 
have introduced legislation which would remove the wolf from 
the Endangered Species list and return it to State management. 
The goal is to turn back the clock to exactly where we were 
before the court decision, and the text of my bill does just 
that.
    Members of this Committee know how hard we need to work to 
resolve this. I think there is cooperation on this Committee to 
resolve this wolf matter. As incoming Director, you would be 
charged with working with us to find that solution.
    This spirit of cooperation is what built the west. Listen 
to the words of Wallace Stegner: ``It is true that the west's 
history is punctuated with the lives of rugged individualists. 
But they built such things as railroad empires, land empires 
and the Anaconda Copper Company. Who built the west as a living 
place, a frugal, hard, gloriously satisfying civilization, 
scrabbling for its existence against the forces of weather, and 
a land as fragile as it is demanding, was not rugged 
individualists, but cooperators, neighbors, who knew how to 
help out in crisis, who could get together and build a school 
and figure out a way to get the kids there. Pool their efforts 
to search fort lost cattle, or lost people, and joined in 
frequent blowouts, dances and fairs.''
    Mr. Ashe, I know that is the spirit with which you will 
approach this job. We need that cooperation and working 
together to get this done. I wish you good luck.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    I want to welcome you, Mr. Ashe, to the Senate Environment and 
Public Works Committee.
    The Fish and Wildlife Service has a unique responsibility to watch 
over our Nation's wildlife. Your decisions about their likely future 
and whether intervention is needed impact millions of people around the 
country. This is a significant charge, and it is imperative that your 
decisions reflect both the current and best science as well as the 
reality of conditions on the ground.
    Mr. Ashe, we have a problem, and that problem is wolves. The recent 
court decision which overturned the Fish and Wildlife Service's 2009 
rule has created an untenable situation on the ground. Montana's 
consensus_based approach to wolf management is being rewarded by the 
return of the wolf to the endangered species list. Management has 
shifted to Washington. Montanans don't need D.C. bureaucrats telling us 
how to manage wolves in our State.
    Ranchers aren't clear on what the rules are and hunters are worried 
that elk populations may dwindle if wolf populations are left 
unchecked. Just last week, the Fish and Wildlife Service said it would 
be 6 more weeks before it acts on a Montana proposal to conduct a wolf 
hunt this year to control populations. We've been talking about this 
now since August. We're well past the time when it should have been 
fixed. I have introduced legislation that will remove the wolf from the 
endangered species list and return it to State management.
    My goal is to turn back the clock to exactly where we were before 
the court decision, and the text of my bill does just that. The members 
of this Committee know what needs to be done, and I look forward to 
working with each of you, westerners and easterners, republicans and 
democrats, to enact legislation in the coming weeks. We need to resolve 
this, and we need to do it now.
    As incoming Director of the Fish and Wildlife Service, you, Mr, 
Ashe, will be charged with working with us to find a solution. I hope 
that you will take that charge seriously. This spirit of cooperation is 
what built the West.
    Wallace Stegner wrote, ``It is true that the West's history is 
punctuated with the lives of rugged individualists . . . but they built 
such things as railroad empires, land empires, and the Anaconda Copper 
Company.
    Who built the West as a living-place, a frugal, hard, gloriously 
satisfying civilization scrabbling for its existence against the forces 
of weather and a land as fragile as it is demanding, was not rugged 
individuals but cooperators, neighbors who knew how to help out in 
crises, who could get together to build a school and figure out a way 
to get the kids there, pool their efforts to search for lost cattle or 
lost people, and join in infrequent . . . dances, and fairs.''
    I hope that we can work together, in this same spirit, to resolve 
the wolf issue now.

    Senator Boxer. Thank you, Senator.
    Senator Boozman.

STATEMENT OF HON. JOHN BOOZMAN, U.S. SENATOR FROM THE STATE OF 
                            ARKANSAS

    Senator Boozman. Thank you, Madam Chair.
    Mr. Ashe, we want to thank you for your dedication to the 
Fish and Wildlife Service, and thank you for appearing here 
today. Congratulations on your nomination. That is an honor in 
itself.
    As you know, the Service operates 10 refuges in Arkansas. 
These are an important part of our State. The agency's 
activities have a major impact on Arkansas' economy and the 
economy of our country. You have an important mission, 
conserving, protecting and enhancing fish, wildlife and plants 
and their habitats for the continuing benefit of the American 
people. I want to help you meet these important 
responsibilities, while minimizing adverse impacts to job 
creation, the economy of Arkansas and our way of life.
    It is interesting, we all, whether it is wolves, or oil or 
whatever, most of us here are most familiar with the areas that 
go on in our State. That is the interaction that we have had 
with the Agencies in the past. I guess what I would like to be 
reassured of is that as we deal with areas, that we deal with 
it with common sense. Are we using sound science, are we 
getting the emotion out of the play, and are we helping 
producers and entities as we make changes that in many cases 
threaten the very existence.
    In some cases, we have had, I think that has made a good 
story with the Agency. In other cases, it hasn't been as good a 
story. Recently, the Obama administration added big head carp 
to the Injurious Species under the Lacy Act. In the past, 
silver carp and black carp have been added to the list through 
the rulemaking process. But their farmers were allowed to sell 
their inventory. Now we are in a situation in Arkansas where 
the only way to get rid of the stock that they have is to drain 
the ponds and in doing so, because of the process that is 
involved, probably many, many will escape, again, causing 
unintended consequences.
    I was the ranking member on Water Resources on the House, 
and have sat through many hours of testimony and understand the 
danger and the economic impact that that has on areas like the 
Great Lakes and things like that. But I guess what I would like 
to know, as we talk further, again, we have to have a willing 
commitment, not only in that area, but in all of these areas 
that you are hearing about, to work with a particular industry, 
to make sure that we have an environmentally safe way to solve 
the problem.
    With that, I yield back.
    Senator Boxer. Thank you very much.
    Now, we go to Senator Whitehouse.

  STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair.
    Welcome to the Committee, Mr. Ashe. Thank you, Mr. 
Strickland, for your service. I want to thank the Chair for 
renewing my appointment as the Chairman of the Oversight 
Subcommittee and for adding to our jurisdiction the science and 
research issues. I look forward to working with my Ranking 
Member, Senator Johanns, and with Senator Boozman on the issues 
that will be before us. I want to thank Senator Barrasso for 
his service as the ranking member of that subcommittee in the 
past Congress. He is a pleasure to work with, and I enjoyed it 
very much.
    I am also very grateful to be serving on Chairman Baucus' 
Subcommittee on Transportation and Infrastructure, Chairman 
Cardin's Subcommittee on Water and Wildlife, and my friend, 
Chairman Udall's Subcommittee on Children's Health and 
Environmental Responsibility. I think those are all important 
tasks for this Committee.
    The only thing that I would ask of Mr. Ashe is that in my 
view of the Constitution, it is perfectly legitimate for the 
executive branch of Government to make its own determination of 
what the situations are that confront this country and react 
within the laws that Congress has established. The amount of 
carbon pollution that mankind has released into the atmosphere 
is not a theory, it is a fact. The concentration of carbon 
dioxide in the atmosphere is not a theory, it is a fact.
    The effects of that have been known since the Irish 
scientist Tyndall figured it out in the 19th century. It is 
textbook science, it is not a theory in that sense. It is fully 
established and virtually unchallenged.
    So the fact that we are changing our planet in significant 
ways, as measured by things like our water, our oceans' acidity 
being for the first time veered outside of a range within which 
they have been for 8,000 centuries is a risky proposition for 
us, and something that I think the executive branch does well 
to attend to, and meets its responsibilities to the American 
people when it does attend to it. I would urge you to not mimic 
the ostrich that puts its head in the sand and look to the 
facts around you and discharge your duties accordingly.
    But I think that the theory that the executive branch can't 
act or decide or respond to reality until Congress has directed 
it to is a mistake, so long as the executive branch is acting 
within the laws that Congress has prescribed. I would urge you 
to use your good judgment. There are times when Congress 
represents the will of the American people, there are times 
when Congress represents the will of very powerful vested 
interests. I think the executive branch is capable of sorting 
through that, and I look forward to working with you.
    Senator Boxer. Thank you very much, Senator.
    Last but not least, Senator Udall.

STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM THE STATE OF NEW 
                             MEXICO

    Senator Udall. Thank you, Madam Chair. I also very much 
appreciate my appointment as Chair of the Subcommittee on 
Children's Health and Environmental Responsibility, and I look 
forward to working with you on an aggressive agenda there. I 
look forward to serving with Lamar Alexander as the Ranking 
Member on that Subcommittee. I know that that is an area where 
we have very important issues to tackle.
    I would like to welcome Dan Ashe to the proceedings today, 
and thank him for his years of hard work given in serving our 
Nation in the Fish and Wildlife Service. I think also before 
that, you served in the House of Representatives as a staff 
member. So you have experience in a legislative situation and 
you also have, I think, significant experience at the Fish and 
Wildlife Service. I think you are just the kind of career 
person that we need at the Fish and Wildlife Service.
    As you know, the Agency that you have worked in has serious 
duties and very difficult responsibilities. The Fish and 
Wildlife Service is responsible for ensuring that all species 
are able to survive as we try to co-exist. With the progression 
of climate change, and as my colleague, Senator Whitehouse, 
mentioned, we have some real disagreements on this committee. 
But the science is pretty clear. The work of the Fish and 
Wildlife Service will become more and more difficult.
    In that respect, whether we agree or disagree on the 
impacts of global warming, adaptation should be something we 
can all unite around. The Fish and Wildlife Service has 
embarked on a program, I believe, a cooperative program which 
deals with adaptation called the Landscape Conservation 
Cooperatives, which you are trying to work with and form around 
the country. I look forward to hearing, in your testimony, how 
that program is going, how it is progressing.
    Your Agency is also essential, it is essential that you use 
science-based policies to accomplish the goal of maintaining 
healthy wildlife populations and the ecosystems that support 
them. Maintaining healthy ecosystems will help ensure that our 
water, air and food is also clean and healthy. By protecting 
the environment we also protect man.
    So with that, I look forward, I will shorten my opening 
statement here and look forward to the questions and your 
testimony. I also want to thank my good friend, Tom Strickland, 
for your hard work in the Agency. You have overseen this 
particular agency, Fish and Wildlife. You have also overseen 
Parks. At the same time, as I think I said at your nomination, 
I couldn't believe you were also going to do the Chief of Staff 
job. I think you have done a remarkable job in that respect. I 
am sure that Secretary Salazar is really going to miss you, and 
certainly the country is, too. So thank you for your service.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Would you like us to put your entire statement into the 
record? We will do that, without objection.
    Actually, it is your moment now, Mr. Ashe. I am sure you 
thought at one point you would have to send in for lunch. But 
we are at that point. So welcome, and go right ahead. If you 
want to go off text and address some of the issues that were 
raised, we will give you a couple of extra minutes. It is up to 
you, or you can wait for the questions. Go right ahead.

STATEMENT OF DANIEL M. ASHE, NOMINATED BY PRESIDENT OBAMA TO BE 
            DIRECTOR, U.S. FISH AND WILDLIFE SERVICE

    Mr. Ashe. Thank you, Chairman Boxer and Ranking Member 
Inhofe, and Committee members. I do want to thank Senator 
Cardin for his very kind introduction and everyone here for the 
warm welcomes I have received as I have come to your offices 
and met with you before today's hearing.
    I would like to acknowledge a few people that are here 
today. Certainly my wife, Barbara, who has already been 
introduced, but who has stuck with me for 32 years, despite 
pretty serious addictions to work and waterfowl hunting. Our 
daughter, Mary, who has also been introduced.
    Dr. Tom Kitsos and his wife, Mary. Tom was my boss for 13 
years on Capitol Hill and my long-term mentor. Tom, Mary, thank 
you very much for being here today.
    I would like to add my congratulations and thanks to 
Assistant Secretary Tom Strickland. Tom has been a great ally 
in fish and wildlife conservation. When he departs the Interior 
Department tomorrow, he will be sorely missed in the days 
ahead.
    Just 19 months ago, our late Director, Sam Hamilton, was 
sitting where I am today, being considered for what he called 
the best job in the country. To me, Sam was leader, colleague, 
a boss and a friend. So today, I am standing on Sam's 
shoulders, but also on the shoulders of many dedicated Fish and 
Wildlife Service employees, present and past, including my own 
father. Because of his 37-year career, I have known the Service 
my entire life. Following him to wildlife refuges and 
hatcheries, I learned to band birds, to fish, to hunt, to hike, 
and just to wander about and to love the outdoors.
    The first 13 years of my career, as has been mentioned, I 
was a professional staff member for the former Committee on 
Merchant Marine and Fisheries in the U.S. House of 
Representatives, a committee with a great tradition of 
bipartisan accomplishment. A committee that not only nurtured 
great conservation laws, but great conservation leaders and 
legislators with names like Dingle, Breaux, Forsyth, Boxer and 
Inhofe.
    In 1995, then-Director Molly Beatty asked me to join the 
Service's leadership team. My Capitol Hill experience has been 
invaluable in the four leadership posts that I have held since 
then.
    I believe during that time I have earned a reputation for 
collaboration, integrity, vision and accomplishment. My 
leadership direction will be straightforward. The Service must 
have a strong scientific foundation and a culture of 
interdependence with partners.
    The Service is proudly successful, but it is one part of a 
larger conservation community that includes local, State and 
tribal governments, non-government organizations, the business 
sector and America's private land owners. The Service's success 
depends upon their success.
    Receiving the Senate's confirmation as Director would be a 
distinct honor, certainly because of the opportunity to be of 
service to the Nation, also to serve the people who are the 
U.S. Fish and Wildlife Service, people who are passionate about 
conserving wild places and wild things, and people who 
represent the very best in public service.
    I have seen it in employees working hand in hand with the 
State of California to restore San Francisco Bay wetlands. I 
have seen it in employees working alongside private landowners 
and public school teachers in Oklahoma. I have seen it in 
employees struggling against white nose syndrome in bats 
throughout the east and now into the western United States. I 
have seen it at its very best when employees literally dropped 
everything and deployed to the Gulf of Mexico in its times of 
need after Hurricane Katrina and the Deepwater Horizon oil 
spill.
    If confirmed, I hope to nurture their indomitable spirit, 
remove obstacles to their success, provide them a sense of 
direction and optimism, and set a tone for integrity and 
excellence. I am extraordinarily honored that President Obama 
and Secretary Salazar asked me to serve as Director. It seems 
just yesterday I was following my dad to wonderful places like 
Blackbeard Island, Okefenokee, Chattahoochee Forest, Sanibel 
Island and Big Pine Key. Now I am being considered to lead the 
outfit entrusted with these great places and so many more, the 
world's finest organization of fish and wildlife conservation 
professionals.
    It is humbling, and it is a powerful incentive to uphold 
the tradition of excellence that the Office of Director 
demands. With the consent of this committee and the U.S. 
Senate, I will give the job my very best.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Ashe follows:]
Statement of Daniel M. Ashe, Nominee for Director of the U.S. Fish and 
                            Wildlife Service
                              introduction
    Thank you, Madam Chairman, Senator Inhofe, and Members of the 
committee. I am honored to be with you today as President Barack 
Obama's nominee to serve the American people as Director of the U.S. 
Fish and Wildlife Service.
    With your indulgence, I would like to begin with a short, personal 
introduction to provide some context for how I came to be here today.
                          personal background
    I have been a part of the U.S. Fish and Wildlife Service (Service) 
family for my entire life, so my nomination to serve as Director of 
this great Agency represents both the opportunity of a lifetime and an 
honor.
    I was born, and spent my childhood, in Atlanta, Georgia, where my 
father began what was to be a 37-year career with the Service. His is a 
far more interesting story than mine. Born into the industrial poverty 
of Connecticut's Naugatuck River Valley and educated with the aid of 
the GI bill, he and my mother moved to Atlanta so he could take a job 
with the Service. There, he advanced through a series of positions in 
what was then the Branch of Lands, later the Division of Realty, and 
ultimately rose to be Deputy Regional Director in the Service's 
Northeast Region. Some of my earliest and fondest childhood memories 
are accompanying my father to national wildlife refuges and fish 
hatcheries in the Southeast--such as Okefenokee, Blackbeard Island, and 
Chattahoochee Forest--where I learned to band birds, fish, hunt, hike, 
and most importantly, to simply enjoy the outdoors. I saw Service 
employees in action, doing their jobs with commitment and camaraderie, 
something I recognized but could not put into words as a kid. I met 
people who would become Service legends, like Jack Watson, the colorful 
manager of National Key Deer National Wildlife Refuge, and former 
Directors John Gottschalk and Lynn Greenwalt, whose leadership and 
vision made distinctive contributions to the Service.
    My mother grew up during the great depression, in the poor working 
neighborhoods of Bridgeport, Connecticut. She raised five boys, and, 
maybe because we had nothing else to do, was always encouraging us to 
``go outside.'' In spring and summer, she allowed our screened porch to 
become a veritable zoological park of lizards, snakes, turtles, 
orphaned birds and even the occasional baby possum or raccoon. The 
milkman once stopped delivering to our house because the milk box was 
just a perfect reptile receptacle. She demanded excellence in school, 
and she modeled tolerance for differences among people, but intolerance 
for the racial injustices of that time. More than anyone, she taught me 
that I could accomplish anything--whether repairing a faucet or 
bicycle, competing in sports, attending college, or leading a complex 
organization--as long as I was willing to dedicate myself fully to the 
task at hand and learn from my mistakes.
    My parents did not actively encourage me to go into the 
conservation profession; they did not have to. They simply opened the 
door to the endless fascination of wild things and wild places and to 
the passion of those working to conserve our outdoor heritage. These 
early experiences gave me a deeply rooted appreciation for the work 
that the Service and its partner organizations do and a desire to play 
a part in it.
    I followed that passion to Texas A&M University and then Florida 
State University, where I earned a Bachelor of Science degree in 
biological sciences. Later, I earned a graduate degree in marine 
affairs from the University of Washington. My master's thesis, on 
estuarine wetland mitigation, was published in the Coastal Zone 
Management Journal in 1982.
    I am joined today by my wife Barbara, whom I spirited away from the 
State of Florida in 1979. She married a marine biologist and is fond of 
saying she has been moving further from the coast ever since. Barbara 
is the Executive Vice President for the Montgomery County Chamber of 
Commerce, so we have a marriage that represents the interconnectedness 
of environment and economy, and one that is always filled with lively 
discussion. We have two children, Mary and Michael. Both are pursuing 
their own course in education and life, and I am proud that they each 
have a burning love of the outdoors and an appreciation of what is 
required to conserve it.
    My journey to the Nation's capital began when I was awarded a 
National Sea Grant congressional Fellowship in 1982. For the next 13 
years, I served as a member of the professional staff of the former 
Committee on Merchant Marine and Fisheries, in the U.S. House of 
Representatives. During my time on Capitol Hill, I advised the 
Committee's Chairmen and Members on a wide range of environmental 
policy issues, including endangered species and biodiversity 
conservation, ocean and coastal resources protection, the National 
Wildlife Refuge System, the National Marine Sanctuaries Program, the 
Clean Water Act, wetlands conservation, fisheries management and 
conservation, and offshore oil and gas development--all issues of 
direct concern to the Agency I am nominated to lead. My experience on 
the Hill gave me invaluable insight into congressional operations and 
the work ethic of Members and staff, as well as an understanding and 
respect for the craft of policymaking that has served me well in my own 
work with the Service.
                      track record and experience
    When I was hired as the Service's Assistant Director for External 
Affairs in 1995, I was thrilled to have the opportunity to follow in my 
father's footsteps and make my own contribution to an agency we both 
love. In that position, I directed the Service's programs in 
legislative, public, and Native American affairs, research 
coordination, and State grants-in-aid.
    From 1998 to 2003, I served as the Chief of the National Wildlife 
Refuge System, directing operation and management of the then 93 
million-acre Refuge System and the Service's land acquisition program. 
During those 5 years, the Refuge System developed a promising vision, 
expanded its commitment to partnership, volunteerism, and ``friends'' 
organizations, and set the stage for sustained success. As a result, 
the System received vastly expanded public visibility, partner and 
community involvement, and strong support within the Administration and 
Congress. Today, the Refuge System stands at more than 150 million 
acres, 553 units, and 38 wetland management districts. I believe it is 
the world's finest collection of public lands and waters dedicated to 
fish and wildlife conservation.
    Throughout much of its history, the Service has set the standard 
for science-based wildlife management, and, in my view, the best 
science must inform and underpin everything we do as an agency. I am 
proud to have contributed to a renaissance of science and 
professionalism within the Service during the 6 years I served as 
Science Advisor to the Director before becoming Deputy Director in 
2009. In this capacity, I had broad responsibility to provide 
leadership on science policy and scientific applications to resource 
management. During my tenure, the Service began developing and 
implementing an agenda for change toward a science-driven, landscape 
conservation business model designed to respond to broad threats such 
as habitat loss and fragmentation, illegal trade in wildlife, invasive 
species, growing water scarcity, wildlife disease, and global climate 
change. I also led efforts to reemphasize the importance of scientific 
research and professionalism and worked to build stronger relationships 
with the U.S. Geological Survey and scientific professional societies.
    As a member of the Service's Directorate, I have worked hard to 
ensure that this commitment to scientific integrity is maintained and 
our responsibility to the American public is fulfilled by implementing 
state-of-the art approaches to strategically address the nation's most 
pressing conservation needs. I have also provided leadership in 
implementing strategic landscape conservation as our operational 
paradigm to ensure that we target science in the right places through 
thoughtful planning, monitoring of outcomes, and adaptive management.
    The Service makes decisions every day that are important to the 
American people. The actions we take to ensure the sustainability of 
our nation's fish and wildlife resources affect both public and private 
lands and impact the quality of life, the economic well-being, and the 
recreational and aesthetic enjoyment of our citizens. Our decisions and 
actions have both immediate and long-term implications: as public 
servants entrusted by the American people with stewardship 
responsibilities for America's wildlife resources, we act on behalf of 
both present and future generations. Public service, social 
responsibility, respect for all stakeholders, and scientific integrity, 
are core values that serve as foundations of the professionalism upon 
which those that came before me built this Agency. My highest 
aspiration as Director, if confirmed, is to strengthen those 
foundational core values so that this commitment to the American public 
can be realized and the trust placed in the Agency to provide 
leadership in stewardship of our nation's wildlife resources can be 
fulfilled.
                   philosophy, priorities and vision
    My conservation philosophy is straightforward: safeguarding the 
Nation's fish, wildlife, and plant resources and our magnificent lands 
and waters requires that we recognize and capitalize on our 
interdependence with a larger conservation community that includes 
local, state, and tribal governments; non-government organizations; the 
private sector; and America's private landowners. Our work must reflect 
a unity of purpose in what we want to achieve, the vision to recognize 
the opportunities in the challenges we face, a determination to move 
forward courageously in addressing those challenges, and an optimism 
that these challenges can be met. I believe these qualities define our 
Agency and they were shared by my friend and our former U.S. Fish and 
Wildlife Service Director Sam Hamilton. Sam's tragic passing less than 
a year ago left the Service deeply wounded but, at the same time, 
inspired in us a strong desire to move forward in carrying out our 
shared vision for the Service.
                            unity of purpose
    History has demonstrated that unity of purpose yields success in 
conserving fish, wildlife, plants and habitats. When we pull together 
we get things done, whether it is the creation of a system of lands and 
waters as a refuge for wildlife, the passage of laws to protect 
endangered and threatened species, or the response to a disastrous oil 
spill. In fact, it is my belief that unity with our State fish and 
wildlife agency partners is the most consequential ingredient in our 
success. States have the principal responsibility for fish and wildlife 
stewardship in America. When they are strong in that stewardship, we 
are strong. When they succeed, we succeed. The Service's authorities 
are to enhance the work of our State counterparts. This includes 
providing a framework for migratory bird conservation across national 
and international boundaries; safeguarding endangered and threatened 
species; regulating interState and international wildlife trade; and 
acquiring and managing nationally significant habitat for wildlife and 
fish conservation. Sam and I often spoke about the importance of 
maintaining our core partnerships, particularly our crucial 
relationship with the states. He often characterized the importance of 
that relationship by saying, ``Let there be no daylight between us.'' I 
also well remember that among my father's staunchest allies, and best 
friends, were State agency directors such as Dick Cronin in 
Massachusetts and Pennsylvania's Ralph Abele. I firmly share this 
commitment to partnership with the states, and growing these 
relationships will be a key element of my agenda if I am confirmed as 
Director.
    Unity of purpose within what we collectively call the 
``conservation community'' is also an essential ingredient to success. 
Historically, this community has run the gamut from the most 
traditional sporting organizations to the most progressive 
environmental groups. The Service has often been a place where these 
interests come together, and that was certainly an ingredient in my 
successful tenure as National Wildlife Refuge System Chief. I 
supported, and benefited from, the Cooperative Alliance for Refuge 
Enhancement , or CARE. This group includes a cast of organizations with 
very diverse missions, from the National Rifle Association to the 
Defenders of Wildlife, working together to support the National 
Wildlife Refuge System. If confirmed, you have my commitment that I 
will foster this type of unity as a means of strengthening natural 
resource conservation. I believe that no single entity, whether 
Federal, state, tribal or private, can independently address the 
conservation challenges of the 21st century. We must adopt a philosophy 
of interdependence, which requires relationships founded in respect and 
trust, and I would make this a priority during my tenure as Service 
Director.
    In the Service, we are well aware that the ``conservation 
community'' includes America's private landowners. More than 70 percent 
of land in the continental United States is in private ownership, 
largely as farms, ranches, and forests, as well as land held in trust 
by the United States for various Indian tribes and individuals. While 
the Service's collaborative efforts range as far as international 
partnerships that conserve species of concern around the globe, they 
are also as near as work with individual landowners in America through 
programs such as Partners for Fish and Wildlife.
                   vision, determination and optimism
    I believe unity of purpose leads to a renewed and expanded vision 
of what is possible in conserving our natural resources. That greater 
vision, in turn, serves to strengthen our determination to face 
adversity and act with courage and optimism, even in times of 
uncertainty. Throughout its history, the Service has demonstrated both 
the vision to identify emerging environmental threats and the 
determination to implement critical responses, whether rising to the 
challenge of the 1930's Dust Bowl of J.N. ``Ding'' Darling's tenure as 
Director, the widespread use of contaminants in Rachel Carson's era as 
a Service scientist, or the depletion of wetlands in the 1980's, when 
my father was helping lead the organization.
    We once again witnessed this vision, determination and optimism on 
the part of the Federal Government, the Service, the states, and our 
many conservation partners during the recent Gulf oil spill crisis. As 
Deputy Director during this crisis, I was proud to play a role in 
helping orchestrate the Service's response, but our Service employees 
were the real heroes. Nearly 2,000 of them--approximately 25 percent of 
the Service's workforce--worked directly on the spill, with more than 
1,500 actually deploying to the Gulf Region to assist in the response 
after the Deepwater Horizon rig exploded and sank on the night of April 
19, 2010. Service employees from all programs and pay grades cleaned 
tar balls off beaches; worked long hours behind the scenes hunched over 
laptops in Incident Command Centers; surveyed bird colonies and 
habitats by plane, helicopter, boat and on foot; rescued oiled birds 
and brought them in for cleaning; saved baby sea turtles who might 
otherwise have died; and volunteered for second, and third, and fourth 
deployments in response to the need for their services. Most important, 
the Service's men and women integrated smoothly into the largest, most 
complex, and successful Incident Command Structure ever assembled 
outside of a war zone.
    The work performed by the Service and its Federal and State 
partners has been critical to the overall response effort. We are proud 
to be playing a key role today, working in partnership with the States, 
private citizens, and the conservation community in restoring one of 
the most incredible ecosystems on the planet. This task will not be 
easy, and it won't be accomplished quickly. We are in it for the long 
haul. Nothing less than success is acceptable, and continuing our all-
out support for Gulf Coast restoration will be among my top priorities 
as Director, should I be confirmed.
    We are living in an era of monumental conservation challenges, 
including the loss and fragmentation of habitats, genetic isolation, 
invasive species, water scarcity, and illegal wildlife trade. We know 
these challenges will be compounded by continued growth, and growing 
affluence in human populations and the associated demands on land and 
water resources. We know they will be magnified by the effects of a 
changing climate. All of these stressors work in concert--24 hours a 
day and 7 days a week--cumulatively challenging our efforts to sustain 
healthy, vibrant ecosystems, particularly in regard to those species 
already recognized as endangered, threatened, or imperiled. Our vision 
and our determination must be equal to these challenges.
    Now more than ever our conservation work must be science-driven, 
and the activities we undertake for species on the ground, at 
individual project sites, must strategically support achievement of our 
conservation goals at broader scales, across entire species' ranges, or 
what we would call ``landscapes.'' A more holistic conservation 
approach is particularly critical in understanding and responding to 
nationwide resource threats, such as the spread of white-nose syndrome 
(WNS) in bats--animals essential in our ecosystems as pollinators, seed 
dispersers, and providers of natural pest control. Named for the white 
fungus that appears on the muzzle and other body parts of hibernating 
bats, WNS has spread rapidly across the eastern United States, killing 
more than 1 million bats. The fungus has been detected as far west as 
Oklahoma, and is expected to continue spreading.
    To effectively manage these kinds of emerging challenges and to 
ensure sustainable natural systems into the future, we must develop the 
capacity to envision and deliver conservation across connected networks 
of habitats, based on scientific understanding and predictions of 
species' needs. That is why the Service is working with its sister 
bureaus in the Department of the Interior and with government, non-
government, and private sector partners to establish a network of 
Landscape Conservation Cooperatives (LCCs), a system of science-
management partnerships working in unison to support on-the-ground 
strategic conservation efforts at landscape scales. LCCs operate within 
a specific landscape--at present, 21 geographic areas in all. Active 
partners include Federal, state, and local governments; tribes; 
universities; non-governmental organizations; landowners; and others 
involved in resource management. Collectively, LCCs represent a 
national, and ultimately, international network of land, water, 
wildlife and cultural resource managers and interested public and 
private organizations.
    Vision in the area of scientific capacity, capability, and 
excellence would also continue to be a priority for me as Director, if 
confirmed, as it has been in my role as Deputy Director. Science is, I 
believe, the key to conservation success on the ground. From the 
creation of the world's most comprehensive waterfowl surveys to the 
pioneering work on the effects of DDT on migratory birds, the Service 
has built a reputation for science excellence that spans decades. In 
recent years, we have renewed our commitment to science within the 
Agency, taking a number of key steps including the development of the 
Service's first ever Scientific Code of Professional Conduct and two 
peer-review journals to support the work of our scientists and provide 
our employees with the best tools available to accomplish our 
conservation mission.
    Through careful consultation with its partners and employees, the 
Service will identify additional priorities for conservation science 
and develop additional capacity and partnerships to develop, acquire 
and apply science with unsurpassed excellence. I will aspire to 
continue strengthening the culture and capacities for scientific 
excellence as Service Director, should I be confirmed.
    At the same time, we are investing in technological tools a 
valuable payoff in times of tight budgets and smaller staffs. The use 
of Geographic Information Systems, for example, is transforming the way 
that our field personnel are capturing, analyzing, and managing habitat 
data; they are able to do in hours what otherwise would have taken 
months to accomplish. Our efforts to make this and other tools more 
widely available will have both immediate and long-term benefits. If 
confirmed as Director, I aspire to continue working for gains in 
science and technology that are reshaping the way the Service does 
business in the 21st Century and equipping our workforce with the 
necessary tools to conserve, protect and enhance fish, wildlife, and 
plants and their habitats--trust responsibilities that are unwavering 
even as our world continues to change.
    In 1973, Congress passed the Endangered Species Act (ESA) by a 
nearly unanimous vote to protect those species in danger of extinction 
or under threat of becoming endangered. The Service is, in large 
measure, the Agency entrusted with administering the Act. I believe 
that as a country, we can take great pride in the fact that this 
legislation has been a success story and has prevented the loss of 
hundreds of species, including the bald eagle and the peregrine falcon.
    In implementing the ESA, we will identify opportunities to more 
fully engage states and tribes as partners in managing threatened and 
endangered species and their habitats as we operate within our limited 
resources and ever-increasing workload. More energy and attention 
should be focused on species recovery--the ultimate goal of the Act. If 
confirmed, I would work closely with the Committee on this issue.
    Of equal importance is the need to address a continuing and 
alarming downward trend in our Nation's fish species resulting from 
loss in the amount and quality of freshwater, estuarine, and marine 
habitats. America's fisheries have sustained our people since our 
earliest history, and today a multi-billion-dollar industry in 
commercial and recreational fishing helps to support our economy. For 
more than 100 years, the Service's hatchery program has worked to 
facilitate recreational fishing and aquatic habitat restoration through 
partnerships with states and tribes that benefit local communities. If 
confirmed one of my priorities will be ensuring that our Nation's fish 
and aquatic communities are receiving the attention and resources 
necessary, including through voluntary partnerships and other capacity-
building endeavors, to successfully foster fish habitat conservation 
and provide benefits to the American people.
    Last March Secretary Salazar released The State of the Birds 2010 
Report, which assessed the vulnerability of nearly 800 bird species to 
climate change and indicated that climate change will have an 
increasingly disruptive effect on bird species in all habitats. The 
Report noted that all 67 oceanic bird species, including petrels and 
albatrosses, are among the most vulnerable birds in the United States 
to climate change. For bird species that are already of conservation 
concern, such as the golden-cheeked warbler and the whooping crane, the 
added vulnerability to climate change may hasten declines or prevent 
recovery. Key to addressing this challenge is continued strong support 
and growth of partnership conservation initiatives such as Joint 
Ventures--self-directed, regional partnerships that deliver science-
based, on-the-ground conservation.
    The State of the Birds 2009 Report also highlighted examples where 
habitat restoration and conservation actions have reversed previous 
declines. These improvements are largely attributable to a strong focus 
on wetlands conservation and management, particularly the overwhelming 
success of a continental waterfowl management plan that involved the 
restoration and management of more than 30 million acres of wetlands by 
the United States, Canada, and Mexico. The efforts though programs and 
initiatives like Joint Ventures have demonstrated that bird populations 
show amazing resilience and ability to recover when the health of their 
habitat is sustained or restored. When we apply conservation, 
conservation works.
    Contributing to these conservation successes is the Service's Law 
Enforcement program, whose efforts I am committed to strengthening. Our 
Office of Law Enforcement investigates wildlife crimes, helps Americans 
understand and obey wildlife protections laws, works in partnership 
with international, state, and tribal counterparts to conserve wildlife 
resources and regulate wildlife trade. I am particularly concerned with 
bolstering those activities that combat the unlawful take and 
commercialization of our rarest wildlife species and address other 
critical threats to wildlife conservation. The Office's special agents, 
who pursue crimes that range from wildlife profiteering to habitat 
destruction, and wildlife inspectors, who provide the Nation's front-
line defense against wildlife smuggling, work on more than 13,000 
investigations each year. The success of this work is even more 
critical now as wildlife resources face new pressures from climate 
change and habitat transformation.
    Our National Wildlife Refuge System will be front and center in 
this effort, as well as in the Service's climate adaptation and 
landscape-scale conservation strategies. If I am confirmed, I look 
forward to working with Secretary Salazar, in close collaboration with 
the Senate Environment and Public Works Committee and the House Natural 
Resources Committee, to strengthen the integrity of the National 
Wildlife Refuge System and chart a clear course for the System as a 
crucial element in shaping the Nation's environmental future.
    Just as the Fish and Wildlife Service works to preserve the 
diversity of America's natural resources, we are also following the 
Department of the Interior's lead in building a workforce that reflects 
the diversity of the American people. My father is proud of the fact 
that he hired the first modern-era female refuge manager at Canaan 
National Wildlife Refuge in West Virginia in the mid-70's--not very 
long ago. Today, the Service's workforce is strengthened by a growing 
gender, racial, and ethnic diversity, but we still have a long way to 
go.
    Diversity is a long-term, ongoing commitment. If confirmed, I will 
commit to an increased focus on this important effort. This is not just 
the right thing to do for people; it is also a smart way to carry out 
conservation. Unity of purpose requires that the makeup of our 
organization be reflective of American society as a whole. We will work 
as an executive team to set and accomplish diversity goals, and 
managers and supervisors will be held accountable for achieving 
measurable, meaningful, and lasting results in this area. We are 
committed to doing a better job of marketing the Service to 
nontraditional audiences, committing resources, training our managers 
and supervisors, developing our employees, and recognizing those who 
have taken personal responsibility for organizational change.
                               conclusion
    I would be profoundly honored to become Director because of the 
great opportunity it gives me to be of service, both to the Nation and 
to an organization whose mission I strongly believe in. What I learned 
from my dad and from watching Service employees growing up is that 
public service is a privilege and a high calling, one that I answered 
early on in my career. The issues we are dealing with on a daily basis 
as a Service are very important to me and are my life's work.
    Next, I am convinced that what came before, including my experience 
on Capitol Hill and the four leadership positions I held in the 
Service, has prepared me for the task that lies ahead as Director, 
should I be confirmed. My desire is to apply all that I have learned 
from life and from some exceptional leaders I have had the chance to 
observe, including in the U.S. Congress, to foster the unity of 
purpose, create the vision, unleash the determination, and apply the 
spirit of optimism that are needed to ensure a sustainable future for 
fish and wildlife and healthy ecosystems for wildlife and people. I am 
excited about what is possible for the Service and for the Nation as we 
move forward in creating science partnerships across the public and 
private sectors through LCCs; as we leave ``no daylight between us'' in 
our collaboration with states and other partners; as we pursue 
scientific excellence within and outside our ranks to inform our 
decisionmaking; as we move forward in restoring Gulf Coast ecosystems; 
as we seek ways to improve our implementation of conservation laws; as 
we work to reconnect people to the great outdoors; and as we grow a 
diverse and inclusive workforce that will prepare this organization to 
lead our conservation mission well into the future. I believe that in 
every challenge there are incredible opportunities waiting to be seized 
upon by those with the motivation and the tenacity to do so.
    That brings me to the final, and most important reason, I would be 
honored to serve: the people who make up the U.S. Fish and Wildlife 
Service. Our employees give everything they have to the mission out of 
their passion for America's fish, wildlife and plant resources and the 
incredible diversity of landscapes and water bodies that support them. 
These employees do not need anyone to ``motivate'' them--they are 
driven by their deep-seated desire to ensure the legacy of wild places 
and wild things for this and future generations. What those inside the 
Service know is that when it comes to leadership, it is strong at every 
level of the organization. We are led both top down and bottom up. Some 
of the most exciting innovations we have undertaken, including carbon 
sequestration to reduce atmospheric greenhouse gases and strategic 
habitat conservation, were ideas that began at the field level, where 
most of our workforce is employed. My job as Director, if confirmed, 
would be to nurture, foster, and guide that indomitable spirit of 
innovation, remove obstacles to our success, and lead us forward in 
pursuing the relationships and the organizational and scientific 
excellence that will be required to achieve the Service's and the 
Nation's conservation mission.
    I am extraordinarily grateful that President Obama and Secretary 
Salazar have placed their trust in me as the nominee to serve as 
Director of the Fish and Wildlife Service. If confirmed, I can assure 
you that I will work in a spirit of collaboration with Congress, state, 
tribal and Federal agencies, and all stakeholders in pursuing what I 
know to be our mutual interests in securing the health and well-being 
of our Nation's fish and wildlife resources and their habitats for the 
benefit of the American people. I am honored and humbled at the 
opportunity to appear before you and happy to answer any questions you 
may have concerning my qualifications and willingness to lead what I 
believe to be the finest organization of fish and wildlife conservation 
professionals in the world.

    Senator Boxer. Thank you so very much for your eloquent 
testimony.
    I have a couple of required questions for your nomination. 
Do you agree, if confirmed by the Senate, to appear before this 
committee or designated members of this committee and other 
appropriate committees of the Congress and provide information, 
subject to appropriate and necessary security protection, with 
respect to your responsibilities?
    Mr. Ashe. I do.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
communication are provided to this committee and its staff and 
other appropriate committees in a timely manner?
    Mr. Ashe. I do.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Mr. Ashe. I do not.
    Senator Boxer. OK.
    Let me just say, I don't have a lot of questions, Mr. Ashe, 
because to me, you are an excellent nominee. Your dedication to 
this, your willingness to work with all of us, I think it 
shines through. I am going to put a couple of things in the 
record. The Ranking Member and I are very good friends. We 
agree on a lot of things, and we disagree on some things. It is 
no great shock to know that we do disagree on the issue of 
climate change.
    Instead of getting through a back and forth, in my view, I 
am going to put at this point into the record a release that 
was put out by President Bush's Interior Secretary, Dirk 
Kempthorne, and this is what it said: ``Today, as President 
Bush announced U.S. support for development of a new framework 
on climate change, Secretary of the Interior Dirk Kempthorne 
affirmed that the ongoing work of the new Interior Department 
Climate Change Task Force is essential to ensuring that his 
department fulfills its mission.'' He says, ``I recently 
created the Department of the Interior Task Force to study 
climate change, because of its possible effects on our ability 
to be good stewards of wildlife, national parks and other 
landscapes, as well as our responsibility to help moderate 
greenhouse gas emissions.'' He says ``This is a priority for 
both Department leaders and employees in the field.''
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I put that in the record, because there is a 
misconception here that this is turning into a Republican 
versus Democratic battle. Maybe it is today, but it certainly 
wasn't at that time.
    The other thing I want to put in the record is very 
important, and I think Senator Udall, you would be interested 
in this. There is a very important report that was put out 
about a year ago. It is called Global Warming's Threat to 
Hunting and Fishing. In the report, at the top page, it is a 
quote from your dad. It says, ``Each generation has its own 
rendevous with the land. By choice or by default, we will carve 
out a land legacy for our heirs.'' Stuart Lee Udall. Then it 
goes on, and the people who issued these report are: Ducks 
Unlimited, Trout Unlimited, the Isaak Walton League of America, 
the Bass ESPN Outdoors, the Association of Fish and Wildlife 
Agencies, the Coastal Conservation Association, the American 
Sportfishing Association, Pheasants Forever, the Boone and 
Crockett Club. This report was edited and supported by the 
Wildlife Management Institute and the Theodore Roosevelt 
Conservation Partnership.
    So the reason I want to put this in the record, and I will 
just read one paragraph in my time remaining, ``The urgency to 
address the effects of climate change on fish and wildlife have 
become increasingly evident. Already, waterfowl exhibit changes 
in seasonal distribution. Higher water temperatures and 
diminished stream habitat are threatening coldwater fish, such 
as trout and salmon. Big game are shifting to more northerly 
latitudes and to higher elevations to escape summer heat and 
find suitable forage. With each passing season, the need to 
develop strategies and invest in management practices to assist 
fish and wildlife adapting to a warmer world becomes more 
imperative.''
    [The referenced information was not received at time of 
print.]
    Senator Boxer. So now again, this isn't any politician 
saying this. This is Ducks Unlimited, Trout Unlimited, et 
cetera.
    So I just put those in the record, because I think they 
stand, I think they are eloquent statements without politics 
getting into it, mine or anybody else's.
    So I guess my one question is, because this is so important 
to all of us here, do you promise us that science will lead you 
in all of these issues, regardless of what it is? Will science 
lead you? Will you tell us what the science shows you? It is up 
to us to balance the science with other issues that we face. 
But from you, I believe it is your job, that is what I believe 
your job is, to let us know what the science is on what is 
happening to our fish and wildlife. Would you promise that 
today?
    Mr. Ashe. I will, Senator Boxer. The acquisition and the 
application of the best available science is a priority for me 
with respect to everything that the Fish and Wildlife Service 
does. I think it is particularly important in the arena of 
changing climate that we understand the implications and the 
effects of a changing climate system on fish and wildlife 
resources. Because that is our responsibility. Our 
responsibility is to ensure that we are taking the steps today 
that are going to be providing a healthy fish and wildlife 
resource 10 and 20 and 30 years from now.
    So it is very important for us that we make the right 
investments today, knowing what we know, and using what the 
best science available tells us.
    Senator Boxer. Of course. When I mention climate change, 
and put these in the record, I don't mean to suggest that that 
is the only threat out there to our fish and wildlife. They are 
going through a lot of other issues in my State, as well as 
climate change.
    Last thing, I ask unanimous consent to enter into the 
record letters from a range of business, conservation, hunting 
and fishing organizations that support Dan Ashe's nomination. 
These include National Wildlife Refuge Association, American 
Fisheries Society, American Fly Fishing Trade Association, 
American Sports Fishing Association, National Marine 
Manufacturers Association, the Nature Conservancy, the Theodore 
Roosevelt Conservation Partnership, the Association of Fish and 
Wildlife Agencies, Ducks Unlimited and the National Wild Turkey 
Federation.
    With that I call on Senator Inhofe.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. Thank you, Madam Chairman.
    First of all, I would agree, and you can add my name to 
that list. I can't think of anyone more qualified for this job, 
with your background, which has been covered thoroughly.
    I would ask unanimous consent, so that I don't use all my 
time responding to your opening remarks, that my opening 
remarks and my testimony to the House Committee on Energy and 
Commerce 6 days ago be made a part of the record at this point 
in the record.
    Senator Boxer. Absolutely, without objection.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. Now, Mr. Ashe, when I first read this 
thing, examine everything we do, every decision we make, every 
dollar we spend through the lens of climate change, what was 
your role in adopting that language?
    Mr. Ashe. That language specifically I don't believe I 
played any particular role. I did play a leading role in the 
development of that strategic plan. So I, as Science Advisor, 
pulled together our climate strategic plan team, which spanned 
the entire agency. It was that team that put together that 
strategic plan and I certainly nurtured that to its end point.
    Senator Inhofe. Thank you.
    The confirmation I would like to have from you is that you 
would commit that you would manage this Agency, if confirmed, 
to the original statutory mandate and that you will ensure 
listing decisions and other important business is conducted 
according to the strictly defined statutory definition, which 
is found in section 1533 of 16 U.S.C.A.
    Mr. Ashe. Yes, sir. Our job, the mission of the U.S. Fish 
and Wildlife Service is to conserve, protect and enhance fish, 
wildlife and plants and their habitat for the continuing 
benefit of the American people. We have a number of statutory 
provisions that we are responsible fro administering. I will do 
that.
    Senator Inhofe. Good. I appreciate that.
    The next question I have has to do with the Candidate 
Conservation Agreements. We went through in December of last 
year the issuance of a proposal to list the sand dune lizard, 
habitat mostly in the New Mexico and the Texas area. But then 
later on, the discussion moved on to the lesser prairie 
chicken, which is of course Oklahoma and other surrounding 
States.
    It is my feeling, after looking at this, that the Candidate 
Conservation efforts were pretty much undermined. This is where 
we get the landowners, the stakeholders, those people that I 
talked about in my opening statement, having to do with 
Partners Program, and the Candidate Conservation agreements. I 
guess, I believe that there is a lot of effort now just to run 
this thing with a political agenda. That is not you, but this 
is the thing that I believe is going on now.
    So the question I would ask is, if you are confirmed, will 
you commit to me that you will increase the use of CCAs and 
that you will give them adequate time to work so that we can 
allow ranchers and others to stay in business and protect the 
species at the same time, which is what they believe the CCA 
program is designed to do?
    Mr. Ashe. Yes, sir, I will. The Candidate Conservation 
program will be a personal priority of mine, and is a priority 
for the Agency. Because that is the effort that allows us to 
take action early on and hopefully avoid the need to list 
species in the first place. That should be our first option.
    Senator Inhofe. I have been told by some of the individuals 
who are in, these would be stakeholders, that the local, I 
stress local Fish and Wildlife and Bureau of Land Management 
officials felt that we did not exercise the CCA part of the 
determination as we should have. I would like to have you check 
that out with those individuals, if you are confirmed, to find 
out what those local officials felt about the CCA program. 
Would you do that?
    Mr. Ashe. I will do that, Senator, and if I am confirmed, I 
would very much like to work with you to look for opportunities 
for us to improve our ability to apply the Candidate 
Conservation program.
    Senator Inhofe. When you were in my office, I told you, we 
kind of relived the successes of the Partnership Program. 
Again, I don't remember whether you were out there at the 
hearing that we had in Oklahoma. That was an eye opener, it 
demonstrated very clearly that people did want to practice good 
environmental and conservation practices on their land. I have 
been concerned that several millions of dollars came out of 
that program for the ``assistance and response to climate 
change.'' I would ask that if you are confirmed, would you 
commit to return the Partnership Program to its purpose, which 
is to work with private landowners to restore fish and wildlife 
habitat on private lands? Would you do that?
    Mr. Ashe. Senator, if I am confirmed, I will work with you 
to ensure that that program continues to do that. Because I 
believe that is exactly what the program is doing today. What 
we need to do is actually expand that concept and that 
framework. Earlier this year, I was with Secretary Salazar in 
the Flint Hills of Kansas, where we were standing shoulder to 
shoulder with livestock producers who are supporting our effort 
to establish a 1.1 million acre conservation area to put 
easements on that landscape and preserve that working way of 
life. It was Jim Minerath, who is a private lands biologist for 
the Fish and Wildlife Service, who has really been the spark 
that has made that entire partnership possible.
    But the idea of working with landowners, particularly in 
working landscapes like the Flint Hills, like the Rocky 
Mountain Front of Montana, that is an important.
    Senator Inhofe. Like the Little Sahara in Oklahoma.
    Mr. Ashe. Yes. There you go.
    Senator Inhofe. You just talked about Kansas, that is just 
to the north of the area near Woodward, OK, that we have one of 
the greatest success stories in the program. So yes, I know 
that you believe in that, I know that you want to enhance that.
    Mr. Ashe. I was not at the hearing that you mentioned with 
former Director Hall. But I have been in Oklahoma and I spent 
time with our private lands biologist there, with public school 
teachers in the Tulsa area. It is tremendous, the kind of work 
that we are doing there and the kind of reaction that we get 
from both the landowners and the young children who are going 
to be tomorrow's conservationists. So I absolutely believe that 
that is a key element of our success.
    Senator Inhofe. I appreciate that. It is actually in 
Edmond, Oklahoma, we have had some huge successes in teaching 
these young people and bringing them up. That is a very 
important part of this program.
    I am sorry I went a little bit over.
    Senator Boxer. That is OK, that is fine.
    Senator Cardin.
    Senator Cardin. Thank you, Madam Chair, and Mr. Ashe, 
again, welcome to our committee.
    One of the most important functions of this committee is 
oversight, it is to make sure that the policies of our Nation 
are being properly implemented. On the Water and Wildlife 
Committee, there is no higher priority than to make sure we get 
the Natural Resources Damage Assessment right for Deepwater 
Horizon, because that will be the basis of what we hope will be 
the remedial plans to protect future generations from the 
damage that was caused by Deepwater Horizon. The subcommittee I 
chair held a hearing on the 111th Congress to try to get a grip 
on how the Federal Agencies were proceeding on the NRDA 
assessment.
    As I understand it, Fish and Wildlife will play a critical 
role in that regard, as the lead trustee in making those 
evaluations. So I am going to ask a question for the record, 
because I think it is absolutely critical that we, the 
Environment and Public Works Committee, get information that is 
important to make sure that the damage assessment is being done 
in the most professional way.
    So my question to you, if confirmed as Director of the Fish 
and Wildlife Service, will you commit to keep this committee 
informed about progress and let us know about any issues, 
whether financial or otherwise, that might impede this Natural 
Resource Damage Assessment?
    Mr. Ashe. If confirmed, I do make that commitment, Senator 
Cardin. I do think that is where my experience as a 
professional staff member in the House of Representatives, I 
have sat on the other side of the dais, I know what it is like 
to be in that position, and it will be a priority for me.
    Senator Cardin. We need to work together on this issue, 
there is no question about it. It is a very difficult 
circumstance, an unprecedented spill with unprecedented 
potential damages. The remedial plans are going to be difficult 
under the most ideal circumstances. But getting the damage 
assessment right, to me, is going to be absolutely essential. 
We look forward to working with you in that regard, and I 
expect our Subcommittee, with the Chairman's consent, will be 
holding additional hearings on the damage assessment and on the 
remedial plans. Thank you for that commitment.
    I want to ask one more question as it relates to the issue 
of climate change. Looking at it from a different perspective, 
I want to talk a little bit about the impact it has had on my 
State of Maryland. Blackwater, which we talked about before, 
Blackwater National Wildlife Refuge, is critically important to 
the environment of the Chesapeake Bay, our entire region. It 
has the most important wetlands that affect the Bay. It is 
important for the bald eagle, and the list goes on and on and 
on.
    Blackwater is disappearing. According to the 2008 Society 
for Wetlands Science report, Blackwater is losing on average 
300 acres of land per year due to rising water levels, with 
5,000 acres of marshland lost since the 1930's. So we are 
seeing much of this land disappear because of sea level 
increased.
    Now, there are reasons, but clearly, warmer climate has had 
an impact on sea level in our region, and could affect, have a 
dramatic impact, not just on Blackwater but have a dramatic 
impact on our entire region. It is my understanding Blackwater 
is not the only example where we have had sea level rise 
increases as a result of climate change.
    So I guess my question to you, as part of your work, will 
you be looking at refuges generally, particularly Blackwater, 
to see whether the best science is used as a result of climate 
change to try to mitigate as much as possible the loss of these 
value refuges.
    Mr. Ashe. I will, Senator Cardin.
    The Blackwater is not just important to me, because it is 
such a great refuge, but because my father did much of the 
acquisition work at Blackwater, and he worked with the State of 
Maryland in acquiring the adjacent State management areas at 
Taylor's Island and Fishing Bay. So that represents a great 
landscape for the Fish and Wildlife resource.
    We have 177 coastal refuges. So the potential for sea level 
rise is important to the management of the resources that we 
are entrusted with. It is also an important issue for the 
taxpayer. Senator Barrasso mentioned earlier that the 
taxpayers' money must be spent where it does the most good. So 
as we look at the future, we could look at a refuge like Archie 
Carr National Wildlife Refuge in the State of Florida, which is 
the most productive nesting beach for sea turtles in North 
America.
    Property, land in and around Archie Carr can cost as much 
as $1.5 million an acre. So as we make decisions about 
acquiring additional land at refuges like Archie Carr, we need 
to understand sea level rise, so that we are applying the 
taxpayers' dollars where they are going to have the most 
benefit, and they are going to have a lasting benefit for that 
resource. In that case, it is a nesting sea turtle. In the case 
of Blackwater, it is our waterfowl resource that is an 
important lifeblood for the economy in Maryland for waterfowl 
hunting, and certainly an important and passionate pursuit of 
my own.
    Senator Cardin. Thank you, and Madam Chair, I would just 
like to point out again for the record that your father, Mr. 
Ashe, was largely responsible for helping develop the Federal 
program for the Chesapeake Bay. I am glad to see that you are 
following in your father's footsteps.
    Senator Boxer. OK. Just for the benefit of all members, we 
have a vote scheduled for noon. I think we are going to be on 
time.
    Senator Barrasso, you are next.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Mr. Ashe, I appreciate very much your openness and 
frankness in answering the questions. I agree with Senator 
Inhofe about your qualifications, your commitment, obviously 
hearing about your father's role in this has prepared you very 
well.
    When you said at the end of your testimony that you will 
give it your very best, I absolutely believe you.
    We had a chance to talk about that area of nesting sea 
turtles in Florida when you came to my office. I want to get to 
the issue now of the recovery of the gray wolf. It is a big 
issue, as you heard from Senator Crapo of Idaho, you have heard 
from our colleague, Senator Baucus of Montana. I would like you 
to explain to the people of our States why the gray wolf is on 
the Endangered Species List in the first place in places like 
Wyoming, when there are thousands of gray wolves in Canada.
    Mr. Ashe. Thank you, Senator Barrasso, and thank you for 
the opportunity you gave me to speak in your office. I 
appreciate the warm welcome you gave me there.
    The question you ask about gray wolf, the Endangered 
Species Act asks the Fish and Wildlife Service to make listing 
determinations when a species is endangered or threatened in 
all or a portion, or a significant portion of its range. It 
also, when we look at listing species, it asks us to look at 
the species as a whole, a sub-species or distinct population 
segment.
    So our job is to look at the science, and if a species is 
endangered in a significant portion of its range, like the bald 
eagle, the bald eagle was always healthy and secure in Canada 
and in Alaska, but it was clearly endangered in a significant 
portion of its range, which was the lower 48 States. The wolf 
had been extirpated in its traditional range in the lower 48 
States, so that is why it was listed.
    Senator Barrasso. There is a lot of discussion about what 
the historic range of the gray wolf has been. We actually have 
a chart of the historic range of the gray wolf, and it includes 
forested communities in Vermont, New York, New Jersey, Rhode 
Island. That is the historic range. So people of the Rocky 
Mountain West, when they see the wolf, there are now wolves in 
Oregon, they have gone all over the place, you know the jokes 
about where are they going to put it next. But this is the 
historic range of the gray wolf, and that is what the concerns 
continue to be.
    Mr. Ashe. Sir, our objective, in March or early April, we 
will be proposing to de-list the wolf in the western Great 
Lakes, where we have a biologically recovered population, and 
we have three States who have developed, and we have been able 
to approve their management plans for the gray wolf in the 
Great Lakes States. We are developing a recovery plan for the 
Mexican wolf, working with our State and other partners. We are 
revising our recovery plan for the Mexican wolf. As you know, 
we are working through the crisis that we have in the northern 
Rocky Mountains.
    So as we in the Fish and Wildlife Service look at recovery 
for the gray wolf, we are looking at those three populations as 
representative of recovery.
    Senator Barrasso. I like the fact that you used the word 
crisis, because that is what the people in the Rocky Mountain 
west believe this is, it is a crisis with the wolf. So thank 
you.
    In the remaining time, when you were in my office last 
week, I asked whether you thought the Congress intended the 
Endangered Species Act, Clean Air Act, Clean Water Act, NEPA to 
be climate change-regulating tools when they passed the bills. 
I think you told me that they were not, at the time they passed 
the bills. I think that is correct.
    I submitted some written questions to the Agency in 
November. I asked if the Fish and Wildlife Service believed 
there were constraints on the ability of the Service to save 
threatened or endangered species from climate change and the 
issues of climate change. The Agency's response was a little 
different. They said they are going to continue to assess its 
statutory authority and the regulations and policy created 
under it to fulfill the intention of Congress in crafting, 
passing and amending these laws.
    So I guess the question is, which is it? Did Congress 
intend these environmental laws to be climate tools, or did 
they not? Because I agreed with what you told me in my office 
last week.
    Mr. Ashe. Congress did not intend them to be climate change 
tools, and the Fish and Wildlife Service is not the responsible 
authority for the regulation of greenhouse gases. As we 
discussed, we do have a responsibility for the conservation of 
fish, wildlife and plants, and in this case, endangered fish, 
wildlife and plants. So as to our authorities to take actions 
to conserve those species, meaning habitat restoration, 
intervention, where we need to do captive propagation and 
reintroduction of those species, we believe we have all the 
authorities that we need to do that work. I think our response 
indicated that if we see additional authorities that we need, 
we will come to Congress and ask you for those authorities.
    Senator Barrasso. Thank you, Mr. Ashe. Thank you, Madam 
Chairman. My time is up.
    Senator Boxer. Thank you very much.
    We will go to Senator Lautenberg next.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Ashe, you defined the threat to the bat population as 
very serious in your remarks. I ask whether or not the impact 
to humans is also an awareness that the public and that we here 
should focus on.
    Mr. Ashe. Is the threat to humans----
    Senator Lautenberg. The threat to the bat population.
    Mr. Ashe. Senator, I am not aware of any linkage in terms 
of health problems.
    Senator Lautenberg. How about the West Nile virus or that 
kind of thing?
    Mr. Ashe. Clearly, there is a class of diseases generally 
termed zoonotic diseases, which are potentially transferable 
between wildlife populations and human populations. Several 
years ago, we had a concern about the avian flu. So there are 
periodically concerns about the potential for transfer between 
wildlife populations and human populations.
    So we have to always be thoughtful of that. That is why 
wildlife disease is a particularly important issue in 
conservation. We need to have increasing amounts of information 
about how disease affects wildlife populations throughout their 
range. That certainly is the challenge with white nose 
syndrome.
    Senator Lautenberg. What steps thus far has Fish and 
Wildlife taken to combat this problem?
    Mr. Ashe. The problem of white nose syndrome?
    Senator Lautenberg. Yes.
    Mr. Ashe. We have taken the leadership role at the Federal 
level. We----
    Senator Lautenberg. What is involved, Mr. Ashe, in that 
leadership role?
    Mr. Ashe. We have taken Fish and Wildlife resources and 
combined those with resources in the U.S. Geological Survey and 
others to address some of the key scientific questions about 
the white nose syndrome. We have established a national 
coordinator position in our northeastern region. We have taken 
the leadership in developing a national management plan for the 
white nose syndrome, which is currently out for public comment.
    So we have been engaging, as the disease has moved to the 
west, we have been engaging with our partners in the Park 
Service, the Forest Service and the BLM and our State partners 
to try to put in place voluntary measures to close caves as 
necessary, and also to inform the public, cavers and others, 
about the ways that they can prevent the spread of this fungus.
    Senator Lautenberg. Yes, this is an enormous threat to the 
ecological balance that we strive so hard to maintain. I don't 
know that it is getting the attention that it might, and that 
is why I have developed this emergency wildlife disease threat 
to try and deal with it more aggressively. I hope that we can 
find a way to do that.
    Even those who question whether global warming is man-made 
acknowledge the average temperature of the planet has risen 
significantly over the past century. Shouldn't we all be able 
to agree that fish and wildlife needs the resources to help 
wildlife adapt to the warming that is already happening? No 
matter what the cause is of the rising temperatures. I look at 
polar bears and note the threats to their continuation. We look 
at species of fish and we note that there are species highly 
endangered.
    What can we do to get some consensus of view as to what we 
are obliged to do to curb these problems?
    Mr. Ashe. I want, Senator, to thank you first of all for 
your leadership on white nose syndrome. That is a particularly 
vexing and problematic issue for the Fish and Wildlife Service. 
Having your support has been invaluable as we have tried to 
reconcile our kind of uncertainties and need for new knowledge 
with the imperative to take action. So I want to thank you for 
your leadership.
    I do want to say that I think with regard to climate 
change, I think we share a common interest, that we need to 
have additional scientific information and understanding about 
the effects on fish and wildlife populations, so that we can 
begin to do the work that is necessary on the ground. I think 
it is bringing those two together, the need for more 
information with the need to take action now in the face of 
uncertainties. Because the things we are doing with private 
landowners and other partners on the landscape today are going 
to provide the habitat and the conditions for these species 20, 
30, 40, 50 years from now.
    So the kind of marrying of those two, the need for 
information with the need to act I think is going to be key as 
we go forward.
    Senator Lautenberg. Madam Chairman, I want to enter into 
the record a letter I have that expresses from a bunch of 
NGO's, expressing support for the Wild Disease Emergency Act. 
It includes the American Wildlife Society, and the Natural 
Resources Defense Council, et cetera.
    Senator Boxer. Thank you, Senator.
    [The referenced information was not received at time of 
print.]
    Senator Lautenberg. Thank you, Madam Chairman. Thank you 
very much, Mr. Ashe.
    Senator Boxer. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chairman. Thank you again, 
Mr. Ashe. I just have four pretty focused questions.
    First, have you ever provided any internal agency documents 
which were not then public to an environmental NGO which were 
then used in adverse legal actions against the Department of 
Interior?
    Mr. Ashe. No, sir, not to my knowledge.
    Senator Vitter. Second, Mr. Ashe, a lot of our discussion 
is about sound science. I think we all agree that sound science 
should be the top guiding factor. We may disagree about what 
that means in particular circumstances.
    In the recent Interior action I am most concerned about in 
the Gulf, as you know, the President appointed a 30-day review 
commission of expert scientists who gave him a report. Then, as 
I am sure you are aware, the White House changed elements of 
the executive summary of the report to suggest that those 
scientists supported the moratorium, which they didn't.
    They said so publicly, and they objected to that. In fact, 
the Federal district court judge that I alluded to who has 
since issued a civil contempt order against the Department also 
had something to say about that.
    Do you think that episode is a good model in terms of using 
sound science to guide policy?
    Mr. Ashe. Senator Vitter, that is not an area within the 
area of the Fish and Wildlife Service. I am not familiar with 
it in detail, so I don't think I can provide an answer to your 
question regarding that.
    Senator Vitter. Well, certainly, it is one of the biggest 
things Interior has dealt with in the last year, and certainly 
it was a significant media and public story. So do you have a 
personal reaction to what you know about it?
    Mr. Ashe. I guess I would say to you, Senator, I know what 
I read in the paper on a matter like that. So giving you my 
personal opinion about it would be just that, it would be an 
opinion on my behalf.
    Senator Vitter. I understand that. Can I have your personal 
opinion about it?
    Mr. Ashe. I think, Senator, I guess I would be happy to 
discuss my personal opinions with you in person. I don't think 
it is appropriate for me to do it in a hearing such as this, 
where I am here to speak to my qualifications to running the 
U.S. Fish and Wildlife Service.
    Senator Vitter. Well, you know, normally, one of the 
standard questions a committee asks a high level nominee is, 
are you prepared to come before us when we ask you to and give 
us your best advice. Not necessarily the company line, your 
best advice in general, are you prepared to do that?
    Mr. Ashe. In general, I am prepared to do that, Senator, 
with regard to the things that I am qualified to provide you 
with advice on. I will do that, any time, should I be 
confirmed, I will do that any time the committee requests me to 
do that. But it would be on matters on which I am qualified to 
give you advice, sir.
    Senator Vitter. OK. Well, in this regard, could I ask you 
to read up on this and submit to us in writing your reaction to 
that incident, which goes to a broad issue of the use or mis-
use of sound science in the Interior Department?
    Mr. Ashe. Senator, I would be happy to speak to the people 
in the Department who are expert on that matter and have them 
give their advice to you on that matter. Again, I don't think 
it is my responsibility or place in the Administration to be 
providing you with advice on any matter that falls outside of 
the jurisdiction of the Fish and Wildlife Service and the 
matters that we are responsible for.
    Senator Vitter. OK. Well, actually, I have been asking 
those folks to testify before us, before other committees about 
that for several months now. So if you could pull that off, I 
would appreciate it. I had made that request months ago.
    Mr. Ashe. I will do everything that I can do, Senator.
    Senator Vitter. Right. Third, let me ask you about this. 
One of the President's appointees to the oil spill commission 
is the executive director of the National Resources Defense 
Council. Now the National Resources Defense Council is poised 
to file lawsuits against Interior as soon as Interior issues 
any drilling permits in the Gulf, even if it is completely 
consistent with the Commission's recommendations. Does that 
strike you as a conflict or an otherwise odd situation?
    Mr. Ashe. Senator, I think it is a situation that we are 
often confronted with. An analogy within the Fish and Wildlife 
Service's area of responsibility is a recently completed effort 
where we had a Federal advisory committee on guidelines for the 
operation of wind turbines and the avoidance of impact and 
effect on migratory birds. On that Federal advisory committee 
are representatives of the wind industry, representatives of 
our State partners, representatives of non-governmental 
organizations, all of whom are providing us with advice on how 
to put together a voluntary framework, so that hopefully wind 
turbine projects, the development, the construction and the 
operation of them will be consistent with the requirements of 
the Migratory Bird Treaty Act.
    Any of those people could, subsequent to that, decide to 
challenge us on an individual matter of implementation. That 
could come from the industry, it could come from an 
environmental organization. I think what we have to do is 
respect their right to do that. What we are asking them in that 
context is their best advice, and recognizing that at some 
point in the future, they may decide that it is necessary for 
them to take legal action against us.
    Senator Vitter. So if a person in that situation gives his 
or her best advice, if the overall commission agrees with that, 
adopts it, if an agency follows it and then if that person's 
NGO sues the Agency over it, you wouldn't find that odd?
    Mr. Ashe. If they are following the guidelines, in this 
case, if they are following our guidelines, I think there is 
always difference of interpretation on matters like that. So if 
an individual wind company feels like they followed the 
guidelines to the best of their understanding, but we simply 
have a disagreement, then it is their privilege to challenge 
the Fish and Wildlife Service's interpretation and action. I 
think we have to respect that, if we are going to use those 
kinds of Federal advisory committees and other mechanisms to 
get the best advice that we can from the industry and from the 
environmental community.
    Senator Vitter. Madam Chair, I have one more question. Can 
I ask it?
    Senator Boxer. Yes.
    Senator Vitter. Thank you.
    Mr. Ashe, last year, a district court judge in the Ninth 
Circuit said the Fish and Wildlife Service had ordered a 
protection plan under the Endangered Species Act that was 
``arbitrary, capricious and unlawful.'' He also noted that 
``The public cannot afford sloppy science.'' The same judge 
said NEPA requires agencies to look at the human impact of 
their decisions.
    Does the Fish and Wildlife Service look at the human impact 
of its decisions in that NEPA context and exactly how does it 
do that?
    Mr. Ashe. I am not familiar with the specific reference 
that you are making. But I would be happy to, if you could give 
me, if your staff or you could give me the specific citation, I 
would be happy to respond to you for the record on that point.
    Senator Vitter. OK. Well, of course, we will do that. But 
the idea of human impact is not just about this case, it is 
about NEPA.
    Mr. Ashe. Correct. The National Environmental Policy Act 
requires us to do analysis that looks at significant effects on 
the human environment. That is the terminology in the National 
Environmental Policy Act. We comply with that, which is 
certainly not to say that courts always agree with us. As 
Senator Barrasso and Senator Baucus have both mentioned 
previously, the Fish and Wildlife Service has tried twice to 
de-list the gray wolf in the Northern Rocky Mountains, and 
courts unfortunately have disagreed with us in those cases.
    So from time to time, courts to disagree with us about the 
interpretation and implementation of the law.
    Senator Vitter. Final sub-question about that, does that 
human impact analysis include impact on jobs or economics?
    Mr. Ashe. Again, the specifics, let me get back to you for 
the record on that, sir.
    Senator Vitter. OK. Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    I learned a lot from that series of questions about NEPA. I 
thank you for that series of questions, Senator.
    Well, I think that your time in the hot seat is over, and 
we are all impressed with you. I need to say that questions 
will be due from EPW members a week from today. Get your 
questions in, Senators. Responses from the nominee will be due 
a week after that. So you will be busy cramming with your 
answers. But we really do thank you for being willing to take 
on this task. We know it came about in a very unfortunate 
situation. We however are so pleased that you are carrying on 
the traditions of your family. We again thank the family for 
coming and--wait, Senator Inhofe.
    Senator Inhofe. It is very unusual, Mr. Ashe, that we get 
people either before this committee or other committees for 
confirmation hearings that have the background and 
qualifications that goes beyond generations that you have. I 
know without even saying that you are going to be looking back 
at the history from the very beginning of what you did and what 
your function is and your interest in getting from the private 
sector and all the programs that we mentioned.
    So I think, Madam Chairman, we are very fortunate to have 
Mr. Ashe as our nominee.
    Senator Boxer. Well, we do agree on that.
    We stand adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
